<html>
<title> - WAR IN SYRIA: NEXT STEPS TO MITIGATE THE CRISIS</title>
<body><pre>[Senate Hearing 114-769]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-769

              INSERT TITLE HEREWAR IN SYRIA: NEXT STEPS 
                         TO MITIGATE THE CRISIS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                   INSERT DATE HERE deg.MAY 17, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov
   
   
   
   
   
   
   
   
   
   
   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-447 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



























                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Ford, Hon. Robert S., Senior Fellow, Middle East Institute, 
  Washington, DC.................................................     4
    Prepared statement...........................................     5

Lindborg, Hon. Nancy, President, United States Institute of 
  Peace, Washington, DC..........................................     7
    Prepared statement...........................................     9

Wittes, Dr. Tamara Cofman, Director and Senior Fellow, Center for 
  Middle East Policy, the Brookings Institution, Washington, DC..    13
    Prepared statement...........................................    14

              Additional Material Submitted for the Record

Statement Submitted by Human Rights First........................    40

A New Normal--Ongoing Chemical Weapons Attacks in Syria, February 
  2016
  Submitted by the Syrian American Medical Society...............    45

Text of ``An Open Letter From Syrians Working With U.S. and 
  European Funded Organizations''................................   107




                             (iii)        

  

 
                       WAR IN SYRIA: NEXT STEPS 
                         TO MITIGATE THE CRISIS

                              ----------                              


                         TUESDAY, MAY 17, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Perdue, Cardin, Menendez, Shaheen, 
Coons, Udall, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I want to thank each of you for being here. Ambassador 
Ford, I know we are starting a little bit later than normal to 
accommodate your travel, but we thank all three of you for 
being here.
    We probably will probably limit questions to 5 minutes 
today because of the timing of this hearing and what comes 
afterwards. But, again, thank you.
    As many know, this committee has spent a lot of time on the 
Syrian war. 5 years into the war, I think we can draw a few 
general conclusions.
    Without leverage on the Assad regime, we have little 
ability to influence a diplomatic solution to the war. The 
longer this war goes on, the more complicated it gets and the 
more people suffer.
    Today we are at a meeting in the latest round of peace 
talks in Vienna. In April, I talked to Dr. Hijab, the leader of 
the opposition, and I understand why they withdrew from the 
talks. As violence picked up, humanitarian aid was stopped and 
civilians were targeted. So they almost had no choice, and we 
supported his decision.
    I would be interested to hear your thoughts on what could 
bring the opposition back to the table at this point. More 
importantly, I'd like to hear your expectations for the talks.
    This is a time when civilians continue to be targeted, aid 
convoys continue to be stopped, and in some areas elements of 
the opposition are acting against their own interest. I am not 
sure exactly what can come out of Vienna, but we look forward 
to hearing your thoughts in that regard.
    I know Secretary Kerry has repeatedly mentioned a plan B. I 
have never sensed that was realistic. It seems to me very 
rhetorical. I do not even know if it is aiding in getting to an 
end.
    I would also appreciate your thoughts on some of the 
longer-term ramifications of the war. Issues like the refugee 
crisis, a generation without education, an independent Kurdish 
region, and threats to Turkey will have impact for generations 
to come.
    Finally, we spend a lot of time talking about Syria and not 
enough time listening to what Syrians are saying.
    Without objection, Mr. Ranking Member, I would like to 
insert two documents into the record. The first is a report on 
chemical attacks from the Syrian American Medical Society, and 
the second is a letter from 150 Syrians working to provide 
governance in Syria. Without objection, I will enter those into 
the record.


    [The report and the letter referred to above are located on 
pages 45 and 107, respectively.]


    The Chairman. And with that, again I want to thank you all 
for being here and look forward to our comments from our 
distinguished ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you so much for 
convening this hearing on the War in Syria: Next Steps to 
Mitigate the Crisis, the ongoing civil war in Syria.
    And we have a very distinguished panel, and I thank all 
three for being here and sharing their views as we try to 
figure out how to move forward, recognizing the current 
situation. We cannot rewrite history. We are where we are. How 
do we move forward?
    Suffering of the Syrian people has continued because Bashar 
al Assad and his inner circle cling to power. An 
internationally brokered transition government seems further 
away today than ever with Assad's deputy foreign minister 
recently saying this will not happen, not now, not tomorrow, 
not ever. Assad's contempt for his own people, enabled by Iran 
and Russia, is destroying his country and has created a 
regional crisis, including an internally displaced persons and 
refugee crisis of historic proportions that grows more 
dangerous every day.
    I remember that almost 2 months ago Russian President Putin 
announced that he would start withdrawing troops from Syria. We 
all remember that. And we thought, well, it looks President 
Putin might be exerting his leverage over Assad to get a 
negotiated settlement.
    And yet, here we are again. The cessation of hostilities 
has collapsed. Putin's supposed pressure has receded, and 
Russia's jets have resumed their bombing in violation of the 
very ceasefire that Mr. Putin helped broker.
    As this conflict continues to escalate, the number of 
combatants grow and chances for grave mistakes rise. Just a few 
weeks ago, Russia and Israeli fighter jets nearly confronted 
each other, and reports suggest that Russian jets have fired at 
least twice at Israeli aircraft. And let us not forget that in 
late 2015, Turkey shot down a Russian jet. Misunderstandings 
will and can happen.
    Now, the stakes are higher for our own special forces who 
have been deployed to counter ISIL. And while their mission is 
to train and support local forces to fight ISIL, I am concerned 
that they have been deployed to a complex battlefield.
    I hear the term ``deconfliction'' bandied about. But in the 
fog of war, it is just a term. What we should not lose sight of 
in the fog is the human dimensions of this conflict. The Syrian 
people are suffering.
    Just look at the numbers here, Mr. Chairman. This is 
incredible, the crisis that has taken place. Since March 2011, 
400,000 Syrians have been killed and over 1 million have been 
injured. More than 4.8 million Syrians have been forced to 
leave the country. 6.5 million are internally displaced, making 
Syria the largest displacement crisis globally.
    This humanitarian crisis has been fueled in part by the 
atrocities committed by the Assad regime and violent extremist 
groups against Syrian civilians. Any party responsible for 
these crimes must be brought to justice for the abuses which 
defy international law. We cannot allow impunity. We must hold 
accountable those who are responsible.
    I have repeatedly raised this issue and I am proud the 
Senate passed a bill that I authored, the Syrian War Crimes 
Accountability Act. And I hope the House will do the same. The 
only way forward is to expend every effort to achieve a broad 
political solution and to resolve this conflict through 
negotiations that lead to a stable Syrian government 
representing all of its citizens.
    The combatants and their outside enablers must understand 
that there is no possibility of a military victory for any 
party to this conflict. The Russians cannot bomb their way to 
peace. The Iranians cannot prop up Assad forever.
    Mr. Chairman, I understand this issue has been subject to 
much debate within Congress and between the Congress and the 
administration over the past several years. And I have been 
clear in my view where I think we have opportunities. But I am 
not interested today in reliving or relitigating what might 
have been. I am interested in developing a bipartisan approach 
that allows Congress and the administration to work together 
today to seek to bring peace and stability to Syria and to 
bring an end to the suffering of the Syrian people.
    I look forward to our exchange and hope that we can move 
forward in a positive way to resolve this civil war.
    The Chairman. Thank you, Senator Cardin.
    We will now move to our witnesses. Our first witness is the 
Honorable Robert S. Ford, Senior Fellow at the Middle East 
Institute. Our second witness is the Honorable Nancy Lindborg, 
President of the United States Institute of Peace. Finally, our 
third witness is Dr. Tamara Cofman Wittes, Director and Senior 
Fellow at the Center for Middle East Policy at The Brookings 
Institution.
    If you would just speak in order, it will save time versus 
me reintroducing. And we look forward to your comments. I think 
you know you can summarize. Without objection, your written 
testimony will be entered into the record. With that, thank 
you. Ambassador Ford?

 STATEMENT OF HON. ROBERT S. FORD, SENIOR FELLOW, MIDDLE EAST 
                  INSTITUTE, WASHINGTON, D.C.

    Ambassador Ford. Mr. Chairman, Ranking Member Cardin, and 
distinguished members of the committee, thank you for your 
invitation to speak to you today about Syria and what new steps 
the United States can take to mitigate the Syrian crisis.
    In short, there is nothing the United States can do by 
itself to solve the Syrian crisis now. There is no quick fix. 
This is in part because the Syrian war is, first and foremost, 
a conflict between Syrians. Yes, foreign states are involved, 
some quite, quite deeply. Some have sent their own forces to 
fight in Syria, and one regional state is organizing foreign 
militias to fight in Syria. But these foreign countries do not 
control the Syrians completely. We must remember that most of 
the combatants in Syria are Syrians, and the top leaders of the 
two opposing sides, the Syrian Government and the Syrian 
opposition--they are Syrian. So Syrians ultimately have to 
negotiate an end to this war if they can.
    Neither side, government or opposition, has reached the 
breaking point, although both sides are tired. And I would add 
here the Syrian economy, the Syrian currency is plunging in 
value over recent weeks.
    Both sides, however, still seek military advantage. That 
military advantage is often measured in just a few miles of 
ground. The foreign states helping them are either not willing 
or not able to compel their Syrian allies to stop fighting or 
even allow humanitarian access. And so with this willingness on 
the part of the Syrians to keep fighting and in the absence of 
a widely agreed mechanism to monitor a new cessation of 
hostilities, I doubt--I strongly doubt there will be any 
penalties imposed on any group that violates a renewed 
cessation of hostilities deal.
    Thinking long-term, it makes little sense for foreigners to 
sketch out designs of how a partition of Syria would work one 
day. No Syrian now is seeking partition. They may want 
partition in the future, but they are not there now and it is 
up to them to decide.
    Likewise, it makes little sense to sketch out ideas about a 
future constitution for Syria when the existing state has never 
respected the rule of law and elements of the armed opposition 
do not either.
    Senator Corker, as you just mentioned, it seems unlikely 
the Syrian Government will negotiate a compromise deal for a 
new transition government without more military pressure put 
upon it. We can talk about how we could do that military 
pressure, if you wish.
    But let me just say that I am firmly against introduction 
of more American military forces into combat situations in 
Syria. I spent 5 years of my life trying to stand up an Iraqi 
Government so we could get our forces out of Iraq, and I do not 
want to see more American forces injected into Syria. I am, 
frankly, not happy that we have American forces there now.
    What I would like to see is that the United States do more 
to help Syrian civilians. We should be pressing much harder on 
humanitarian access issues. If the United Nations can airdrop 
supplies to the Syrian Government-held city of Deir ez-Zur in 
the east, which is under siege by the Islamic State, then why 
can it not drop air supplies to Daraya in the Damascus suburbs? 
We should urge the United Nations and we should urge the 
International Committee of the Red Cross to speak more directly 
and to speak more publicly about who exactly is blocking aid 
convoys. No more passive tense.
    I have to say here Jan Eglund's remarks--Jan Eglund from 
the United Nations--about the Daraya aid convoys and the Syrian 
Government blockage--his remarks were a welcomed departure in 
terms of directly fingering who is responsible on the ground.
    Senator Corker, you asked what would bring the opposition 
back to the table. Getting humanitarian aid into communities 
that have been besieged for years would be a huge step in that 
direction.
    Let me just say a few things about the refugees. Jordan and 
Turkey, countries that have done a very great deal, are 
blocking access. There are 50,000 people stranded on the 
Jordanian-Syrian border right now. Those two countries, Jordan 
and Turkey, need to open up their borders as international 
humanitarian or law requires of them.
    But we cannot demand more without doing more ourselves. The 
United States should accept more Syrian refugees. The 
administration is at great risk of not meeting even its 
relatively small target of 10,000 Syrian refugees to be 
admitted this year, and we should be aiming much, much higher. 
The screening processes for Syrian refugees are very thorough. 
They are very labor-intensive. And we need more resources to be 
devoted to that task.
    Let me conclude my remarks there, Senator. Thank you again 
for the invitation this morning.
    [Ambassador Ford's prepared statement follows:]


               Prepared Statement of Hon. Robert S. Ford

    Mr. Chairman, Ranking Member Senator Cardin, other distinguished 
members of the Committee,
    Thank you for the invitation to speak before the committee today 
about what new steps can be taken to mitigate the crisis in Syria. It 
is an honor to appear before you again.
    There is not much we the United States can do now to mitigate the 
crisis in Syria quickly. The fighting is too entrenched and bitterly 
sectarian; both the Syrian government and the armed opposition seek 
military victory instead of preparing their own ranks for tough, mutual 
compromises. Foreign nations are deeply involved--far more deeply than 
the United States--and they are committed to winning the conflict 
militarily. There is no magic American bullet.
    This is not to say there are not useful things the United States 
can and should do, but we are well past the point of a clearly 
identifiable path out of the conflict.
    Today in Vienna there was another meeting of the International 
Syria Support Group and renewed calls for a cessation of hostilities. 
Last January and February I was highly skeptical that efforts to broker 
a cessation of fighting would achieve much. In fact, the February 27 
brought a significant reduction in violence for some weeks--longer than 
many observers, myself included, thought possible.
    But it did break down, badly. Aleppo, the Damascus surburbs, 
Lattakia province, Idlib province, Homs province, Hama province all are 
witness to that. The structural problem undermining an enduring 
cessation is the lack of agreed mechanisms to (1) monitor violations 
and (2) impose penalities on those determined responsible for 
violations. Indeed, it is not clear that American officials have a very 
clear understanding of which groups are operating in specific locations 
as they shift regularly in the course of the fighting.
    I will add here that without greater military pressure on the 
Syrian government it will not negotiate a compromise political 
settlement. The difference in tone between President Assad's public 
remarks of late last July, when he was sober about defeats, and his 
upbeat tone in public remarks this spring after the Russian 
intervention are striking. The Russian intervention thus hindered 
prospects of a negotiated deal. The United States, meanwhile, lacks 
leverage with the armed opposition because it--and its regional 
backers--view us as inconsistent at best. I don't know if our policy on 
the armed opposition in the remaining time of the Obama administration 
will change. I only know the result the policy has had on the ground.
    There are steps the administration might be convinced to take now 
to mitigate some parts of the Syrian tragedy. They would help us from 
the national security standpoint--especially in terms of undermining 
extremist recruiting in Syria--and they would address the horrible 
humanitarian situation.


These steps include:

   Taking more Syrian refugees. The screening process is thorough but 
        labor intensive. It needs greater resources. So far, the U.S. 
        has admitted only about 1,800 this fiscal year when the 
        administration's goal is 10,000 by the end of September. As 
        fantastic as it sounds, we should be aiming to take 100,000 but 
        without far more resources this will not be possible.

   Pressing regional states such as Turkey and Jordan to keep borders 
        open to refugees, as international humanitarian law requires.
          Both countries of course do much to help Syrian refugees, but 
        there are reportedly 50,000 people trapped on the Syrian-
        Jordanian border now in the harsh conditions of early summer. 
        Turkish border guards have shot at refugees attempting to cross 
        into Turkey on occasion. We should urge such actions to stop.


    Likewise there are modest steps we could do to better press for 
access by humanitarian aid providers to civilians in communities under 
siege by both government and opposition in Syria.


These steps include:

   Raising specific instances of aid access denial--whether by the 
        Syrian government or opposition fighters--in the Security 
        Council with a view to discussing the possibility of Chapter 
        VII action.
          The Russians have voted for UN resolutions such as 2254 that 
        call for humanitarian access, and when the Syrian government 
        blocks aid convoys, as it did in Daraya last week, the Russians 
        should not be given a pass.

   Pressing Russia and Iran, and through them the Syrian government, 
        to allow air drops to besieged communities in suburban Damascus 
        just as there have been UN air drops to Deir Zour, an eastern 
        Syrian city controlled by the Syrian Government and besieged by 
        Islamic State forces.

   Press the UN and the International Committee of the Red Cross to be 
        explicit, publicly, about which groups are responsible for 
        blocking aid convoys.
          Only when combatants sense they will suffer retaliation of 
        some sort will they change their behaviors. The absence of 
        agreed monitors that I mentioned before makes the role of the 
        UN and ICRC all the more important. In the past, they have 
        preferred discretion, but clearly that discretion is paying 
        marginal returns at best. The more forthright comments from Jan 
        Egeland of the UN last week after the convoy to Daraya was 
        stopped was a good step in this direction.


    Looking longer term, Syria's unity may be impossible to restore. 
Especially if there is a durable cessation of hostilities but no 
progress on a compromise political deal, Syria could end up de facto 
partitioned even if no Syrian of any political stripe is now demanding 
this.
    Partition is not a particularly good outcome for the United States.


In such a scenario:

   It is doubtful that large numbers of fighters from either the 
        government or the Syrian opposition would reach across lines 
        and cooperate against the Islamic State. It will thus make our 
        efforts against ISIS harder;

   Reconstruction of Syria will certainly be far harder and that in 
        turn means that while refugee flows might subside, relatively 
        few of the 4.8 million outside the country will be able to go 
        home.

   Polling of young people in the region suggests that unemployment is 
        a big driver in extremist recruitment which again suggests that 
        moribund reconstruction will pose a national security problem 
        for us and our allies.


    There are Syrian efforts to reach across bitter ethnic and 
religious divides and they merit our support; they are modest in size 
and won't fix Syria's crisis quickly but they may lay groundwork that 
formal negotiations might utilize later. It is a small investment and 
includes:

   Encouraging more off-line, informal meetings between Syrians in 
        track two formats and direct discussions under the auspices of 
        international NGOs or senior world statesmen;
          It would be especially useful to encourage conversations 
        between Syrian women from opposing camps, although it may be 
        hard to find empowered women from among the ranks of government 
        supporters.

   Encouraging greater participation from ethnic and religious 
        minorities in off-line discussions with opposition and pro-
        government persons.

   Supporting efforts to build stronger civil society organizations in 
        Syria so that they are stronger if the day after fighting ends 
        ever comes.


    The White Helmets, for example, have done great work even if some 
members of that group are far from perfect. There are legal groups 
struggling to maintain elements of fair rule of law in areas outside 
government control that need support and health and organizations 
operating under horrendous circumstances struggling to keep the health 
care sector afloat. They need recognition and support.


    The Chairman. Thank you.
    Ms. Lindborg, before you start, our friends in pink--we 
have been incredibly courteous to you in every encounter in the 
hallway. And you are really disrespecting everyone here by 
making noises and clapping. And we all feel that disrespect. So 
I would just say please act like adults. Otherwise, you will 
leave the room. Okay?
    Ms. Lindborg?

         STATEMENT OF HON. NANCY LINDBORG, PRESIDENT, 
       UNITED STATES INSTITUTE OF PEACE, WASHINGTON, D.C.

    Ms. Lindborg. Chairman Corker and Ranking Member Cardin and 
distinguished members of the committee, I also thank you for 
the opportunity to testify today on the current situation in 
Syria and steps that could be taken now to mitigate the impact 
of the crisis.
    And I will not repeat the grim litany of statistics. 
Senator Cardin, you mentioned some of them, the statistics that 
really underscore the immensity of the human suffering that has 
accompanied this conflict, including displacement, death, and 
widespread crimes against humanity. We have seen use of 
starvation as a weapon. We have seen deliberate targeting of 
religious and ethnic groups and deliberate targeting of medical 
personnel.
    I have full testimony in the record. Let me focus today on 
a few key points.
    The first is that it is imperative to continue the 
lifesaving humanitarian assistance that has saved countless 
lives since the beginning of this crisis. The international 
humanitarian community has mobilized to provide this 
assistance, and with your important support, Senators, the U.S. 
Government has led the way, led the way with the provision of 
$5.1 billion over the course of the crisis. At the same time, 
inside Syria, provision of critical assistance is persistently 
hampered by complexities, by great danger, by operating while a 
regime continues to conduct a ruthless bombing campaign, 
including the deliberate targeting of civilians.
    We have also had the rise of ISIS, which has led to a 
capture of large swaths of territory where access is completely 
denied, and the many different armed factions, including the 
government, that have made crossing of multiple lines of 
control a daily arduous and dangerous undertaking by very 
heroic aid workers. Access to those in need has consistently 
been difficult or denied despite repeated passage unanimously 
of U.N. Security Council resolutions going back to 2014 that 
demand all parties allow delivery of assistance and respect the 
neutrality of medical assistance.
    So even though this is critically important, the 
international mobilization and continuing heroic aid efforts, 
humanitarian action is at best a stop gap. So secondly, the 
most important is that we stop the bloodshed, that we 
prioritize a cessation of hostilities or, better yet, a full-on 
ceasefire. In February, we saw the cessation of hostilities 
that was negotiated by the international Syrian support group 
almost miraculously hold for nearly 7 weeks. From late February 
through early March, we saw the humanitarian community able to 
make important progress. They were able to reach 10 of 18 
communities under siege both through convoys and airdrops. 
Compared with October to December of last year where only 3 
percent of the population was reached, during this 7 weeks 
cessation of hostilities, the humanitarian community reached 52 
percent of besieged communities. There are some estimates that 
violence decreased up to 90 percent during this period, which 
shows you the importance that these kinds of cessations can 
make to suffering and war-torn communities.
    We know that by mid-April, this tenuous agreement began to 
fall apart. Access is now again severely reduced. Negotiations 
for access are again difficult and uncertain with all sides of 
the conflict.
    We also know that the regime bombing campaign never really 
ceased. In April, Syrian regime forces rapidly escalated 
attacks in and around Aleppo and Homs.
    Third, we have to recognize that this is a generational 
crisis and sharply shift our assistance away from a short-term 
model, especially to the refugees to one that emphasizes long-
term resilience and development. The 4.8 million refugees who 
fled Syria have overwhelmed the financial, social, and economic 
systems of the whole region. They have threatened stability in 
Europe. We have already seen significant progress with efforts 
to shift from short-term emergency assistance to addressing the 
long-term reality of the crisis, including new host country 
resilience strategies, new World Bank financing mechanisms, and 
admirable efforts within the U.S. Government to combine relief 
and development. And, Senators, your support on this forward 
movement is critical into the future to ensure longer-term, 
more flexible funding that enables us to address the 
developmental issues and the roots of this crisis in Syria and 
regionally.
    Fourth, we must relentlessly focus on the youth of Syria. 
This is the future of the country and of the region. They are 
growing up in conflict ripped from their families, from 
communities, and any dream of a future. We must relentlessly 
focus on providing the kinds of jobs, education, and 
opportunities for their voice to be heard so that they can be a 
part of a peaceful future. We must keep them from being a lost 
generation or, even worse, a dangerous generation.
    Finally, we have to invest now in peace and reconciliation 
at the community level and in civil society. After 5 years of 
war, we are seeing Syrian communities splintered into a 
multitude of factions. Even if peace is negotiated in Vienna 
tomorrow, the wounds of the Syrians will take generations to 
heal. So we need to help now the Syrians begin to rebuild the 
social cohesion that has been ripped apart by the conflict both 
within the refugee communities and, where possible, on the 
ground inside Syria. Peace will have to be built from the 
ground up with continuous and reliable support to civil 
society, to women, and minorities.
    Thank you, Senators, for your continued focus and attention 
to this issue. I look forward to your questions.
    [Ms. Lindborg's prepared statement follows:]


              Prepared Statement of Hon. Nancy Lindborg\1\
---------------------------------------------------------------------------

    \1\ The views expressed in this testimony are those of the author 
and not the U.S. Institute of Peace.
---------------------------------------------------------------------------
                              introduction
    Chairman Corker, Ranking Member Cardin, and members of the 
Committee, thank you for the opportunity to testify before you today on 
the current situation in Syria and steps that can be taken to help 
mitigate the crisis.
    I testify before you today as the president of the United States 
Institute of Peace (USIP), although the views expressed here are my 
own. USIP was established by Congress over 30 years ago as an 
independent, national institute dedicated to the proposition that peace 
is possible, practical and essential to our national and global 
security. It engages directly in conflict zones and provides tools, 
analysis, training, education and resources to those working for peace.
                 unabated humanitarian crisis in syria
    The numbers associated with the Syrian crisis have become a grim 
litany of steadily increasing statistics throughout the past five 
years. Currently, the UN estimates 11.3 million Syrians are displaced, 
which is roughly equivalent to all the residents of Ohio being forced 
from their homes. Of those, 6.5 million are displaced within Syria and 
another 4.8 million have fled the country as refugees. Overall, 13.5 
million Syrians are in need of humanitarian assistance and of those, 
4.6 million live in areas that are hard to reach. Grimmest of all is 
the climbing death figure, now believed by some to be between 400,000 
and 470,000 deaths.\2\
---------------------------------------------------------------------------
    \2\ The Syrian Center for Policy Research published a report that 
estimated deaths at 470,000 through 2015. UN Special Envoy de Mistura 
made a personal estimate of 400,000 killed on April 28, 2016.
---------------------------------------------------------------------------
    For more than five years the Syrian conflict has crossed the 
threshold of mass atrocities, featuring widespread crimes against 
humanity and war crimes committed by the state security forces, 
affiliated groups, and opposition movements, including the use of 
chemical weapons and the intentional targeting of religious groups. The 
Syrian-American Medical Society has documented 161 chemical weapon 
attacks leading to the deaths of 1,491 people and more than 14,000 
injuries. Additionally, an estimated 488,000 people live in besieged 
areas where they are unable to receive food or basic medical care, 
leading the UN Secretary-General to accuse all parties of using 
starvation as a weapon of war.
                          the global response
    Since the beginning of this crisis, the global community has 
mobilized to provide critical humanitarian assistance. With your 
important support, Senators, the U.S. government has led the way by 
providing $5.1 billion over the course of this crisis. However, inside 
Syria, provision of critical assistance has been persistently hampered 
by the complexities and extreme danger of responding to needs in this 
crisis. The regime has conducted a ruthless bombing campaign, including 
the deliberate targeting of civilians and specifically medical 
personnel and facilities. The rise of ISIS has led to its capture of 
large swaths of territory where humanitarian access is extremely 
limited, and the many different armed actors have made the crossing of 
multiple lines of control an arduous, dangerous and uncertain 
undertaking by heroic aid workers.
    The Syrian crisis has helped drive a steep increase in global 
humanitarian need that has overwhelmed the international system and led 
to significant funding shortfalls globally, despite historic levels of 
funds raised. For 2016, the UN reports only 23% coverage of the $4.55 
billion requested for humanitarian and regional response needs.\3\
---------------------------------------------------------------------------
    \3\ UN OCHA Financial Tracking Service: https://fts.unocha.org/
pageloader.aspx?page=emerg-emergencyDetails&appealID=1133
---------------------------------------------------------------------------
    In February, 2014, the United Nations Security Council unanimously 
passed Resolution 2139, which demanded that ``all parties allow 
delivery of humanitarian assistance, cease depriving civilians of food 
and medicine indispensable to their survival, and enable the rapid, 
safe and unhindered evacuation of all civilians who wish to leave.'' It 
demanded that ``all parties respect the principle of medical neutrality 
and facilitate free passage to all areas for medical personnel, 
equipment and transport.'' However, despite repeatedly reaffirming 
these convictions in subsequent unanimously passed UN resolutions, 
access to hard-to-reach and besieged populations remained difficult or 
impossible, with terrible reports of malnourishment and outright 
starvation.
    Finally, in February of this year, the International Syria Support 
Group (ISSG), co-chaired by the U.S. and Russia, managed to negotiate a 
Cessation of Hostilities (COS) that miraculously managed to hold for 
nearly seven weeks. From late February through early March, the 
humanitarian community was able to make important progress in reaching 
ten of the 18 communities under siege, both through 63 convoys bringing 
life-saving food, medical supplies and treatment and 22 airdrops by the 
World Food Program. Humanitarian assistance reached just 3% (10,500 of 
393,700) besieged between October and December 2015, but with the 
Cessation of Hostilities in place, humanitarian aid reached 52% 
(255,250 of 486,700) of those in besieged communities between January 
and April 2016.\4\ Some estimates indicate that violence decreased by 
90 percent during the cessation, bringing a much needed respite to war-
torn communities.
---------------------------------------------------------------------------
    \4\ ISSG Humanitarian Task Force briefing April 28, 2016.
---------------------------------------------------------------------------
    However, by mid-April, the tenuous Cessation of Hostilities began 
to fall apart. Humanitarian access has once again been severely 
reduced, with negotiations for access again difficult and uncertain. 
The regime bombing campaign never fully ceased, and in April, Syrian 
regime forces rapidly escalated attacks in and around Aleppo and Homs, 
including the destruction of two of the few remaining hospitals in 
Aleppo. The Syrian Network for Human Rights reports that in March and 
April, Syrian government forces killed 1,100 civilians, ISIS killed 165 
and opposition forces killed 170.
    As the ISSG ministerial reconvenes today in Vienna, most urgent is 
the recommitment of all parties to pressure each of the warring parties 
to respect the Cessation of Hostilities in an effort to stop the 
killing and enable critical assistance to reach those most in need.
                           regional spillover
    Syrians fleeing the war have helped push global displacement to the 
historic high of 60 million people worldwide who have been forced from 
their homes by violence. An estimated 4.8 million Syrian refugees have 
fled their country, overwhelmed neighboring countries and now spilling 
onto Europeans shores, triggering a secondary crisis within Europe.
    The impact of this outflow on the region is enormous. Basic 
infrastructure--water, electricity, schools, hospitals--have been 
stressed to the breaking point. Economic and social pressures are 
mounting as countries cope with the influx of Syrians.
    In Lebanon, which is hosting an estimated 1.07 million Syrian 
refugees, nearly one in four people is now Syrian. (If one in four 
Americans were a refugee, the United States would face the unimaginable 
equivalent of hosting the populations of California, Texas and Illinois 
combined.) This influx has increased tensions among Lebanon's own 
communal groups. Since 2011, it has reduced the country's economic 
growth to the 1-2% range. Syrian refugees have increased the labor 
supply but also have pushed more Lebanese into the ranks of the 
unemployed. This crisis, along with Lebanon's chronic debt crisis, 
political paralysis, and declining revenue, has drastically limited the 
government's ability to invest in infrastructure improvements, such as 
water, electricity, and transportation.
    Similarly, Jordan struggles to cope with more than 628,000 Syrian 
refugees. Jordan already suffers from an insufficient supply of natural 
resources, especially water and energy. Coupled with chronic high rates 
of poverty, unemployment and underemployment, this influx of refugees 
places immense stress on one of the region's poorest countries. The 
World Bank estimates that Jordan has lost more than $2.5 billion a year 
since the beginning of the Syria conflict. This amounts to 6% of its 
GDP, and one-fourth of the government's annual revenues.
    Even amid its own war, Iraq also is receiving Syrian refugees. The 
United Nations estimates that more than 246,000 Syrian refugees have 
entered Iraq to escape the Syrian civil war. These refugees join nearly 
four million internally displaced Iraqis, adding to the enormous stress 
on the social infrastructure of a state already suffering from its own 
war.
    Five years ago, there were hopes that changes in the region would 
lead to more equitable, inclusive growth, with an emphasis on creating 
more jobs for MENA's legions of young unemployed. Instead, the reverse 
has happened, with the first four years of the Syrian war costing the 
region as much as $35 billion (measured in 2007 prices) in lost output 
or foregone growth.
    The conflict in Syria has had a profound impact on the lives of 
average citizens throughout the region. In many cases, towns have 
doubled or tripled in size; housing prices have increased, schools are 
operating at double shift, and communities--already poor themselves--
are stretched to accommodate a refugee population that continues to 
expand. Estimates are that per capita incomes for many Turks, 
Egyptians, and Jordanians are 1.5% lower now than they would have been 
without the Syrian conflict, and by 1.1% for many Lebanese.
                     rethinking refugee assistance
    Importantly, the refugee crisis has accelerated a rethinking of how 
assistance is provided, with increased focus and action on responding 
to the protracted reality of this crisis instead of treating it as a 
short term conflict. Given the utter enormity of the social, physical 
and economic destruction inside Syria, it will be decades before people 
are fully able to return home even once a peace agreement is reached. 
While there is still much to do better and differently, there are 
useful if still nascent changes in how the international community 
provides assistance. For example, the UN has worked with Lebanon, 
Syria, Iraq, Turkey and Egypt to develop a regional refugee and 
resilience plan as well as individual country strategies with the goal 
of forging a much closer link between relief and development efforts. 
Additionally, efforts have included an increased focus on:


   Building resilience, with greater attention to education, jobs, 
        psychosocial and social cohesion within both refugee and host 
        communities;

   Addressing potential conflict between refugee and host communities 
        through dialogue, mediation and targeted initiatives, including 
        a recognition of the importance of including host communities, 
        often poor themselves, in any assistance programs;

   Enabling local initiatives and local government and civil society 
        actors to have a greater role and voice in assistance programs;

   Financing to support host countries, including a new World Bank-led 
        MENA financing initiative that provide new concessional loans 
        to Lebanon and Jordan at rates not previously available to them 
        as Middle Income Countries. New funding just announced provides 
        $100 million for Jordan to create 100,000 jobs for Jordanians 
        and Syrians, while another $100 million for Lebanon focuses on 
        education for both Lebanese and Syrians.

   Providing education and livelihoods: Jordan has announced temporary 
        work permits for Syrians; many schools in Jordan have gone to 
        double shifts, and there is progress in enabling Syrians to 
        attend school in Jordan.

                             focus on youth
    Addressing the youth of Syria may be the most important challenge 
as an entire generation is now growing up torn from families, homes and 
dreams. UNICEF reports that the conflict is affecting 8.4 million 
children more than 80 percent of all Syrian children either within the 
country or as refugees. Approximately 3.7 million Syrian children have 
been born since the conflict began in 2011, including over 300,000 
children who have been born as refugees. Without a birth certificate, 
one of the main means of determining citizenship, these children risk 
becoming stateless in the future, adding to their risk. Children are 
left without protection, especially the more than 15,000 unaccompanied 
or separated children who have left Syria. Most of all, there is 
tremendous urgency to ensure education is available, with reports 
noting more than 2.8 million Syrian children are not attending school. 
Young people who languish in refugee camps or live on the margins in 
the slums of host countries risk growing up untrained, unskilled, and 
uneducated. These children and youth, many of them unmoored from 
family, culture and community, are vulnerable to predatory employers, 
the allure of violent extremists groups, transnational criminal 
organizations, or potential victims of human trafficking.
    Despite significant efforts to mobilize action to ensure ``No Lost 
Generation'' of Syrians, persistent funding shortfalls and tremendous 
challenges remain. In the absence of concerted action, we risk a new 
generation of youth without hope and potentially poised to continue 
cycles of conflict. Instead it is imperative to focus on programs that 
enable youth to have opportunities, be heard and have a chance to 
contribute to a more hopeful future. This includes:


   Engaging youth from refugee communities in efforts that enable them 
        to resist the lure of radical ideology, including consistent 
        but discreet support to moderate religious leaders in the 
        region who may engage youth as part of interfaith dialogues and 
        counter radicalization efforts.

   Establish mechanisms to issue children born while displaced or as 
        refugees some form of birth certification and documentation.

   Despite some progress on enabling refugee children to attend 
        school, a full scale concerted effort is needed to ensure that 
        Syrian children can attend school, and importantly, that high-
        school and college students can complete studies that have been 
        interrupted by war.

   Increase the focus on enabling youth to find livelihoods and jobs, 
        with complementary help for youth of host countries.

                       world humanitarian summit
    Next week, the first World Humanitarian Summit will convene in 
Istanbul, with governments and civil society working to map out a new 
approach for humanitarian action at a time of unprecedented need. 
Global humanitarian assistance has shifted over the last decade from 
primarily serving those affected by natural disaster. Now 80% of 
assistance is going to those affected by violent conflict. Conflict has 
been identified by the UN as the ``greatest global threat to 
development.'' The Syrian humanitarian crisis has dramatically 
sharpened the urgency to reconsider some of the fundamental approaches 
to humanitarian assistance.
    The World Humanitarian Summit will aim to expand the number of 
donors helping to meet the global burden of humanitarian need. It will 
seek to increase the efficiency and effectiveness of humanitarian 
delivery; will focus on building resilience and closing the gap with 
development; and most importantly, will deliver an urgent call to 
action on shrinking the need.
    As the Syrian crisis illustrates, all too often, humanitarian 
action becomes the focus in the absence of real solutions moving 
forward. At the Summit, there will be a call to rally the missing 
political will to end these protracted conflicts that wreak 
generational havoc.
                               conclusion
    Today the ISSG reconvenes in Vienna, with the hopes of 
reinvigorating the cessation of hostilities. In the absence of a longer 
term solution, an agreement to staunch the violence is paramount. In 
the meantime, critical policies for the U.S. government include:


          Continued life-saving support: The U.S. government leadership 
        and support has been critical; it is imperative that 
        humanitarian support continues to ensure life-saving assistance 
        is available for those most in need.

          Focus on Resilience: The U.S. government leadership and 
        support is vital for a wide range of changes that could enable 
        smarter, more effective and more efficient assistance. This 
        effort includes more flexible funding that enables greater 
        support for local actors, greater ability to tailor response to 
        needs on the ground and an increased ability to address relief 
        and development needs as part of one response. It also includes 
        support for the new World Bank initiatives that support middle 
        income countries struggling to support an overwhelming refugee 
        burden.

          Focus on building peace and reconciliation at the community 
        level: Finally, we know that even if peace is negotiated in 
        Vienna tomorrow, the wounds of Syrians will take generations to 
        heal. We need to focus now on investing in ways to rebuild 
        social cohesion both within refugee communities and where 
        access is possible, inside Syria. My own institution, USIP, has 
        piloted some of this work inside Syria by gathering religious 
        and tribal leaders, ethnic Arabs and Kurds from a rural 
        northeastern district last year for talks that halted a rise in 
        local communal tensions, let displaced families return home and 
        re-opened a local road critical to normal commerce. This work 
        helps lay the foundation for moderate local leadership and 
        cooperation that are essential for building Syria's future 
        stability. It need not, indeed should not, wait for an end to 
        hostilities.


    Thank you, Senators, for your continued focus and attention to this 
critical issue. I look forward to answering your questions.


    The Chairman. Thank you very much.
    Dr. Wittes?

  STATEMENT OF DR. TAMARA COFMAN WITTES, DIRECTOR AND SENIOR 
     FELLOW, CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS 
                 INSTITUTION, WASHINGTON, D.C.

    Dr. Wittes. Thank you, Mr. Chairman, Ranking Member Cardin, 
committee members. I appreciate the invitation to appear before 
you.
    And let me begin by emphasizing, as I always do, that I 
represent only myself before you today. The Brookings 
Institution does not take institutional positions on policy 
issues.
    When I last testified before this committee regarding 
Syria, it was April 2012, and I expressed then a concern that 
American reticence to act to shape the emergent civil war 
risked enabling an unbridled escalation of the conflict.
    The administration's initial read of the Syrian conflict as 
holding only narrow implications for American interests was a 
failure to learn the lessons of the post-Cold War period by 
recognizing the risk that Syria's civil war could spill over in 
ways that directly implicated American interests.
    Unfortunately, the realistic policy options available to 
the United States have narrowed considerably since 2012, and 
yet, the Syrian civil war has direct and dire consequences 
today not just for regional order but for international 
security. This reality, combined with the tremendous human 
suffering this war generates every day, drives two clear 
imperatives for U.S. policy: to intensify efforts to contain 
the destabilizing spillover and to seek an end to the conflict 
as soon as possible.
    But we must be realistic about what steps will and will not 
end the Syrian conflict. I believe that absent a change in the 
balance of power on the ground, diplomacy alone is unlikely to 
end the war. But I certainly agree with diplomatic efforts to 
advance a countrywide cessation of hostilities and advance a 
vision for a political settlement. A full-scale ceasefire could 
create more space for political bargaining and in the meantime 
reduce human suffering.
    Right now, however, the Assad government and its patrons in 
Tehran and Moscow have no interest in a sustained ceasefire 
because the battleground dynamics continue to shift in their 
favor. They have used the partial ceasefires of the past weeks 
to consolidate territorial gains from opposition forces and to 
further weaken those forces through continued air attacks. 
Without agreement amongst the various governments around the 
table in Vienna as to which fighting groups constitute 
terrorists, a ceasefire will inevitably disadvantage opposition 
factions as the Assad regime targets them in the name of 
counterterrorism. This will likewise advantage the most extreme 
among the rebel factions, as well as jihadi groups like ISIS 
and Jabhat al-Nusra.
    In the ongoing diplomacy over how the conflict ends and 
what political settlement results, there are two issues on 
which the parties involved in the Vienna takes demonstrate 
sharp disagreement and about which the United States needs to 
advance clear views.
    The first is a disagreement over the primacy of preserving 
the central Syrian Government, even if it remains headed by 
Bashar al-Assad. It is understandable to desire the 
preservation of Syrian Government institutions, to want a 
central government to work with on counterterrorism and postwar 
reconstruction. But there is an embedded assumption here that 
any Syrian Government based in Damascus will exercise 
meaningful control over most or all of Syria's territory when 
the war ends. I think that assumption is faulty.
    The degree of displacement, the extent of destruction, the 
hardening of sectarian and ethnic divisions mean that local 
communities will end up being the primary providers of order, 
and it is local order, more than a central government, that 
will enable communities to resist ISIS infiltration. So 
countries concerned with effective governance in Syria as a 
bulwark against extremism need to recognize and value the 
importance of local governance.
    The second major issue under contention is the role that 
Iran will play in a post-conflict Syria. Iran's efforts to 
expand its influence in Syria and the region as a whole are a 
concern that unites all of America's partners in the region and 
a major concern for Washington as well. Any political 
settlement that institutionalizes that role will increase 
Iran's ability to threaten American allies and American 
interests.
    A second major priority for American policy is stepped-up 
efforts to mitigate the destabilizing consequences of the war 
and, while we work on a diplomatic solution, to prepare for the 
long-term, wide-scale effort needed for post-conflict 
stabilization and reconstruction. Let me make just one point on 
this issue.
    I think too often in discussing Syria we posit a choice 
between working with the central government and working with 
unsavory non-state actors. And there is an obvious additional 
option which is already in play that deserves greater emphasis. 
That is empowering and engaging local municipalities, local 
business sectors, local civil society, other actors who exist 
in territory not under either extremist or regime control and 
who have an obvious stake in the success of their communities. 
These are the ones who will manage differences, who will 
mitigate the reemergence of conflict, who will deal with the 
consequences of transitional justice, who will resist terrorist 
infiltration. USAID and its implementing partners I think have 
been very creative in developing programs to engage these local 
communities and this work deserves robust support from 
Congress.
    One final note on the refugee crisis. In addition to 
associating myself with the comments of my colleagues, I wanted 
to let you know that The Brookings Institution in the middle of 
next month will convene a high-level gathering of regional, 
European, and American leaders to develop new responses, more 
robust forms of cooperation to meet this global challenge. And 
I look forward to reporting to you on our findings.
    Thank you.
    [Dr. Wittes's prepared statement follows:]


               Prepared Statement of Tamara Cofman Wittes

    Thank you, Mr. Chairman and Senator Cardin, for the invitation to 
appear before you today. I'd like to request that my full statement be 
entered into the record, and I'll give you the highlight reel. And let 
me begin by emphasizing, as always, that I represent only myself before 
you today--the Brookings Institution does not take institutional 
positions on policy issues.
Opportunities Lost
    When I last testified before this committee regarding Syria, in 
April 2012, I expressed my concern that American reticence to act to 
shape the emergent civil war and the involvement of regional powers in 
it risked enabling an unbridled escalation of the conflict. I suggested 
then that uncontrolled escalation could entrench sectarian violence, 
empower radicals, destabilize the neighborhood, and generate wide human 
suffering. While the Obama Administration has taken incremental steps 
over the last four years to try and shape both the battlefield and the 
context for diplomacy, those steps have proved too little and too late 
to alter the conflict's fundamental dynamics.
    President Obama's initial read of the Syrian conflict as holding 
only narrow implications for American interests was a signal failure to 
learn the lessons of the post-Cold War period, and the civil wars of 
the 1990s, by recognizing the risk that Syria's civil war could spill 
over in ways that directly implicated U.S. interests. The experience of 
the 1990s clearly suggested how a neglected civil war offered easy 
opportunities for a violent jihadist movement--just as the Afghanistan 
war did for the Taliban in the mid-1990s--and how large-scale refugee 
flows would destabilize Syria's neighbors, including key U.S. security 
partners like Jordan and Turkey. And as we now know, ISIS used the 
security and governance vacuums created by the Syrian civil war to 
consolidate a territorial and financial base that the United States has 
been seeking since late 2014, with limited success, to undermine.
    Unfortunately, the realistic policy options available to the United 
States have narrowed considerably since 2012, the violence is 
entrenched, the spillover is creating serious challenges for the 
neighborhood and for Europe, and the number of actors engaged directly 
in the Syrian conflict has proliferated. All of this means that the 
continuation of the Syrian civil war has direct and dire consequences 
today, not just for regional order, but for international security. 
This reality, combined with the tremendous human suffering this war 
generates every day, drives two clear imperatives for U.S. policy: to 
intensify efforts to contain the spillover and misery, and to seek an 
end to the conflict as soon as possible.
Ending the War
    We must be realistic, however, about what steps will, and will not, 
end the Syrian conflict. Recently, some policy experts have suggested 
that, in the name of advancing great-power concord to end the war, the 
United States should relax its view that Bashar al-Assad's departure 
from power is a requisite for any political settlement. This view rests 
on the assumption that Russia will not bend in its insistence on 
Assad's remaining in place, and on the assumption that a U.S.-Russian 
agreement on leaving Assad in place would override the preferences of 
those fighting on the ground to remove him. Both of these premises, in 
my view, are incorrect.
    We must therefore understand clearly the interests and imperatives 
driving the major players in this conflict, and we must understand, 
too, that the battlefield dynamics will heavily condition the prospects 
of any political settlement. Ending the bloody war in Bosnia in the 
1990s involved getting the major external powers with stakes in the 
outcome--the United States, the Europeans, and Russia--to agree on 
basic outlines of a settlement and impose it on the parties. But 
imposing it on the parties required a shift in the balance of power on 
the battlefield, brought about by Croat military victories and 
ultimately a NATO bombing campaign. Bosnia also required a large-scale, 
long-term United Nations presence to separate the factions and to 
enforce and implement the agreement.
    So I believe that, absent a change on the ground, diplomacy alone 
is unlikely to end the Syrian war--but I certainly agree with 
diplomatic efforts to advance a country-wide cessation of hostilities 
and advance a vision for a political settlement. A full-scale cease-
fire could create more space for political bargaining, and in the 
meantime reduce human suffering and mitigate the spillover effects of 
the ongoing violence. Right now, however, the Assad government and its 
patrons in Tehran and Moscow have no interest in a sustained cease-
fire, because the battleground dynamics continue to shift in their 
favor. They used the partial cease-fires of the past weeks to 
consolidate territorial gains from opposition forces and to further 
weaken those forces through continued air attacks. Without agreement 
amongst the various governments around the table as to which fighting 
groups constitute terrorist organizations, a ceasefire will inevitably 
disadvantage opposition factions as the Assad regime targets them in 
the name of counterterrorism. That will likewise advantage the most 
extreme among the rebel factions as well as jihadi groups like ISIS and 
Al Qaeda's affiliate, Jabhat al-Nusra, who will all continue to use 
force to acquire and hold territory and to force their political 
opponents and inconvenient civilians off the field.
    Likewise, some suggest that the sectarian nature of the conflict, 
and the deep investment of regional powers in backing their preferred 
sides, mean that it is not possible to hasten an end to the war at all, 
and that it must be allowed to ``burn itself out.'' This policy option 
is infeasible for the United States, from moral, political, and 
security standpoints. The scale of death and destruction already, over 
nearly five years of war, should shame the conscience of the world. 
Those seeking to escape this misery deserve our succor, and those 
seeking to end the carnage deserve our support. And it is beyond 
question that Bashar al-Assad and his allies are the ones responsible 
for the vast majority of this death, destruction, and displacement.
    In political and security terms, the war's spillover into 
neighboring countries and now into Europe can still get worse. Key 
states like Lebanon and Jordan are at risk of destabilization and/or 
extremist terrorism the longer the conflict goes on and the more of its 
consequences they must absorb. Turkey, as we know, has already suffered 
attacks by extremist groups. And the war has continued to be a powerful 
source of recruitment for extremists, drawing fighters and fellow 
travelers from around the world. ISIS and Al Qaeda feed on the civil 
conflict and the chaos on the ground is what gives them room to 
operate. It is indeed imperative that the United States remain engaged, 
and intensify its engagement as needed, to secure an end to the 
conflict as soon as possible.
Understanding the Geopolitical Context
    In the ongoing diplomacy over how the conflict ends and what 
political settlement results, there are two issues on which the parties 
involved in the Vienna talks demonstrate sharp disagreement, and about 
which the United States needs to advance clear views. The first is a 
disagreement over the primacy of preserving the central Syrian 
government, currently headed by Assad. Russia, along with some regional 
actors (even some opponents of Assad), believe that the most important 
determinant structuring a political settlement must be the preservation 
of the Syrian central government, even if that means preserving Bashar 
al Assad in office. If Assad is ousted without an agreed-upon successor 
in place, they argue, then Syria will become a failed state like Libya, 
in which ISIS will have even more space to consolidate and operate, 
with dire consequences for regional and international security. It is 
this concern over state collapse and the desire for strong central 
authority that keeps Russia united with Iran behind Assad.
    It's understandable to desire the preservation of Syrian government 
institutions as a bulwark against anarchy, and to want a central 
government in Syria with which to work on counterterrorism and postwar 
reconstruction. The problem with elevating this concern to a primary 
objective in negotiations is its embedded assumption that any Syrian 
government based in Damascus will be able to exercise meaningful 
control over most or all of Syria's territory after rebels and 
government forces stop fighting one another. That's a faulty 
assumption, for several reasons.
    First, it is extremely unlikely that we'll see swift or effective 
demobilization and disarmament of sub-state fighting factions in favor 
of a unified Syrian military force. If the central government remains 
largely in the form and structure of Assad's government, and even more 
so if Assad himself remains in power, it is hard to imagine rebel 
groups agreeing to put down their weapons and rely on security provided 
by the central government. Thus, local militias will remain important 
providers of local order and also important players in either defeating 
or enabling extremist groups like ISIS and Al Qaeda.
    Second, effective governance from Damascus is extremely difficult 
to imagine, much less implement. The degree of displacement, the extent 
of physical destruction, and the hardening of sectarian and ethnic 
divisions due to five years of brutal conflict (and decades of coercive 
rule before that) all present steep challenges to centralized rule. 
Those with resources and capacity within local communities will end up 
being the primary providers of order at the local level--and it is 
local order, more than a central government, that will enable 
communities to resist ISIS infiltration. Thus, countries concerned with 
having effective governance in Syria as a bulwark against extremists 
need to recognize the value and importance of local governance in any 
post-war scenario.
    Finally, there is the unalterable fact that Bashar al-Assad and his 
allies have slaughtered perhaps as many as 400,000 of Syria's citizens; 
have used chemical weapons against civilians; have imprisoned and 
tortured thousands and displaced millions; and, through Assad's own 
horrific decisions, have broken Syria's government, the Syrian state, 
and the Syrian nation to bits. Those who demand his ouster as a 
prerequisite for ending the war are justified in their view that Assad 
does not have and will not have legitimacy to govern from a majority of 
Syrians, that his continued rule would be divisive and destructive of 
Syrian unity and security, and that he should instead face justice for 
war crimes and crimes against humanity. As a practical matter, and 
because of all this, many Syrian fighting factions on the ground and 
their supporters, are committed to Assad's ouster. U.S.-Russian 
concurrence on setting that goal aside will not induce them to end 
their fight. The only way that might occur is if Turkey, Qatar, and 
Saudi Arabia--who are committed to Assad's ouster--relent on their 
demands and agree to curtail support to rebel factions who continue to 
fight. This is hard to imagine in the current circumstances.
    In other words, while preserving the Syrian state is a laudable 
goal, it will not alone achieve the objectives set by those who hold it 
out as the primary imperative in the political negotiations over the 
future of Syria. I would suggest that, while the fate of Bashar al 
Assad is not perhaps of primary concern from the perspective of U.S. 
interests, the United States should be pressing Russia and others 
involved in the talks to relax their fixation on Syria's central 
government (and who runs it) as a counterterrorism goal, and to 
recognize that a significant degree of decentralization and 
international engagement with local actors inside Syria will be 
necessary to preserve the peace, to carry out reconstruction, and to 
defeat ISIS. Likewise, the Syrian opposition and those states demanding 
Assad's ouster as a precondition for peace must recognize that they 
have even more to gain from insisting on decentralization and local 
autonomy than they do from Assad's departure from power. They might 
even be able to trade their current demand for Assad's immediate 
departure against robust assurances for empowerment of local authority, 
release of detainees and internationally guaranteed transitional 
justice.
    The second major issue under contention regarding a negotiated end 
to the Syrian war is the role that Iran will play in post-conflict 
Syria. Iran's efforts to expand its infuence--in Syria and in the 
region as a whole--present a concern that unites all of the United 
States's partners in the region, and should be a major concern for 
Washington as well. The gains made by the Assad regime (with Russian 
and Iranian help) over the past eight months enhance the disturbing 
prospect of a Syrian government remaining in power in Damascus that is 
dependent on Iranian funding, Iranian military support, and the 
importation of Iranian-backed militias. While the Russians are perhaps 
concerned more about the Syrian state as a bulwark against extremism, 
Iran is deeply committed to the survival of its Alawi client and the 
maintenance of Syria as a channel for Iranian support to Hizballah. And 
while some Sunni Arab states embrace the goal of preserving Syrian 
territorial integrity and the central government, all are troubled at 
the prospect that this government would be under the thumb of Tehran. 
Any political settlement that institutionalizes Iran's overwhelming 
role in Syria will likewise increase Iran's ability to impact to 
threaten Israel's northern border, to destabilize Lebanese and perhaps 
also Jordanian politics, and to interfere with ongoing efforts to 
assuage the anxieties of Iraqi Sunnis and bring them back into 
alignment with the government in Baghdad.
    The rising likelihood of an Iranian-dominated Syria emerging from 
the war has induced a change in attitude toward the Syrian conflict by 
America's closest regional partner, Israel. Israeli officials took a 
fairly ambivalent stance toward the civil war for several years, 
although they were always wary of the Syrian-Iranian alliance. But 
today, they judge Assad's survival as possible only through effective 
Iranian suzerainty, putting their most powerful enemy right on their 
border. Iranian domination of post-conflict Syria would also likely 
spell an escalation in Iranian weapons transfers to Hizballah--and 
Israel cannot expect to have 100% success in preventing the provision 
of increasingly sophisticated rocket and missile technology to 
Hizballah. These and other types of support from Iran through Damascus 
could increase Hizballah's capacity to wage asymmetric war against 
Israel, at great cost to Israel's civilian population. Israeli 
observers are increasingly alarmed at this scenario, and Israeli 
officials now state clearly that, if faced with a choice, they'd prefer 
to confront ISIS than Iran across the Israeli-Syrian frontier.
    American diplomacy in Vienna must take greater account of the 
destabilizing implications of an Iranian-dominated Syrian government, 
even a rump government that does not control all of Syrian territory. A 
U.S. focus on constructing a political settlement that limits Iran's 
influence in postwar Syria could induce greater coherence among 
American partners in Vienna currently divided over the fate of Assad; 
and it could prevent a situation in which the United States trades the 
threat of ISIS in Syria for the threat of Iranian-sponsored terrorism 
and subversion emanating from Syria.
Al Qaeda and the Syrian conflict
    Al Qaeda's affiliate Jabhat al-Nusra has particularly benefited 
from the war's continuation, from the weakness and partiality of the 
ceasefires negotiated earlier this year, and from the inability of the 
U.S.-Russian diplomatic process to generate any progress toward a 
political transition. Shrewdly, Nusra has focused on building its 
reputation as the most consistent, and most effective, military 
opponent of the Assad regime, and on its readiness to cooperate with 
anti-Assad factions with whom it has other, ideological and political, 
disagreements. The failures of diplomacy feed Nusra's strength and win 
it allies amongst more nationalist rebel factions. And while it's 
tempting for American efforts to focus on rallying forces to defeat 
ISIS, our diplomats and decision makers must beware that leaning too 
far back on the issue of political transition for the sake of building 
an anti-ISIS coalition might just end up pushing more hardline 
opposition elements into the arms of a different extremist movement, 
one with demonstrated intent and capability to attack the United 
States.
    To summarize, it's imperative that American diplomacy to produce a 
political settlement of the Syrian war be firmly focused achieving two 
goals crucial to the interests of the United States and its regional 
partners: first, enabling and institutionalizing local governance as a 
bulwark against ISIS (more than central government institutions), and 
second, establishing hard limits on Iran's role in a post-conflict 
Syria and on its ability to use Syria as a conduit for support to 
Hizballah.
Managing Spillover and Restoring Stability
    A second major priority for U.S. policy, in addition to this 
refocused diplomacy, must be stepped-up efforts to mitigate the 
destabilizing consequences of the Syrian war, no matter how long it 
goes on. And, while the United States continues to work through 
diplomacy and pressure to produce an end to the war, work must also 
begin now to prepare for the long-term and wide-scale effort needed for 
post-conflict stabilization and reconstruction.
    The scope of death, displacement and destruction threatens to rob 
Syria of the basic ingredients for social stability, regardless of what 
lines might be drawn at a negotiating table in Vienna. Without 
concerted effort to ameliorate the effects of this conflict for people 
on the ground, to rebuild social trust, and to nurture resilience 
within these battered communities against conflict and division, any 
peace settlement could quickly unravel the face of local security 
dilemmas and intercommunal tensions, as well as in light of the 
unaddressed scars and grievances of Assad's brutality against the 
Syrian people.
    Meeting this challenge requires at least four lines of effort:


   doing more to engage Syrians in building local governance and 
        community resilience, especially skills and platforms for 
        conflict resolution;

   doing more to stabilize and secure frontline states, including 
        support for integrating refugees into the economy and society;

   helping more refugees create new lives far from the conflict zone, 
        including much more resettlement in the United States; and

   working diligently with regional partners to tamp down the 
        sectarianism that both drives and is driven by the war, and 
        that feeds extremist recruitment and violence.

    As we have seen, ISIS markets itself partly on the order it 
provides to local communities--a brutal order to be sure, but still a 
contrast with the chaos and insecurity of civil war. To counter ISIS 
effectively, we must help local communities with governance and service 
delivery. More can be done even now to put into place the ingredients 
for successful and sustainable conflict resolution for Syrians. These 
steps include enabling and encouraging Syrians displaced by the 
fighting, whether in neighboring countries or in areas of Syria not 
under ISIS or regime control, to engage in dialogue over, and planning 
for, their own communal future. Neighboring states accepting refugees 
have understandably sought to tamp down political discussion and debate 
within refugee camps, for example. But these refugee populations need 
to engage in dialogue to build the basis, in social trust, that will 
enable them to manage daily governance and resolve differences 
peacefully if and when they are no longer living under refugee agencies 
and host-government security services. These processes can also 
connect, over time, to negotiating efforts on a political transition in 
which the Syrian opposition is represented, yielding greater legitimacy 
and efficacy to that more formal political process.
    Too often, in discussing Syria, we posit a choice between working 
with the central government and working with unsavory non-state actors. 
There is an obvious additional option, already in play, that deserves 
greater emphasis: empowering and engaging local municipalities, local 
business sectors, local civil society, and other actors who exist in 
territory not under extremist or regime control and who have an obvious 
stake in the success of their own communities and their defense against 
coercion either from ISIS or from the Assad government. It is these 
local actors who will make or break the implementation of any political 
settlement, because they are the ones who will give it life and 
legitimacy. They are the ones who will help manage differences within 
their own communities and with their neighbors to avoid outbreaks of 
violence, and they are the ones who will lead the establishment of a 
new social compact to enable long-term stability in Syria. USAID and 
its implementing partners have been creative in developing programs to 
engage local communities and local governing institutions, and this 
work deserves robust, sustained support from Congress.
    The United States continues to lead in international support for 
refugee relief--but it lags woefully in refugee resettlement. Only 
about 1300 of the 10,000 Syrian refugees the Obama Administration 
promised to admit into the United States have been resettled here so 
far; and the United States can and should accept more.
    In addition, American policy efforts to address the refugee crisis 
must go beyond humanitarian relief and expanded resettlement. Working 
with European partners, the United States government can work to save 
lives along the transit routes for refugees fleeing the region, can 
support successful integration of refugees into European cities (again, 
working at the municipal level), and can do more to support social 
stabilization, livelihoods, and development for the large refugee 
communities in Lebanon, Jordan, and Turkey and for the societies 
hosting them.
    On June 14 and 15th, the Brookings Institution will convene a high-
level gathering of regional, European, and American leaders to develop 
new responses and more robust forms of cooperation to meet this global 
humanitarian crisis. I look forward to reporting back to you on our 
results.


    The Chairman. Thank you very much.
    Because of the topic and our outstanding witnesses, we have 
a full house, and I know we have other things that are going to 
be starting a little bit later. So I am going to ask Bertie to 
put 5 minutes on the clock instead of 7.
    And I would just ask the witnesses if you can get your 
point across concisely, I know everyone will appreciate it. 
But, again, thank you for being here and for your outstanding 
service to our country.
    I am going to reserve my time.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. And again, I thank 
the witnesses.
    You all three said basically we have to find a negotiated 
way for Syria to move forward as a unified country with leaders 
that will respect all the communities, have the confidence of 
all the communities, that this is a civil war being waged by 
Syrians, and the only way to resolve it is for the Syrians to 
have confidence that a process moving forward can bring their 
country together.
    So what are the lessons learned from the ceasefire that did 
not hold?
    When Russia said they were going to leave, I do not think 
many of us believed that they would be leaving, and clearly 
they did not. We are not sure what Russia's intents are, 
although we know that they want to be relevant in the Middle 
East and they see Syria as a country where they can exercise 
continuing influence.
    Iran is clearly involved here. And their motivations are 
much less understood from the point of view of a way that we 
can work with them and find a common ground to move forward in 
Syria.
    So what are the lessons that we have learned from the 
failed ceasefire that can help us in planning a strategy for 
peace talks that can really lead to a ceasefire and, as you 
point out, the urgency of delivering humanitarian assistance, 
which will also help reconciliation in the country?
    So what would you suggest, moving forward, we should do 
differently than we did in the last efforts in Vienna?
    Ambassador Ford. Senator, I would suggest one big lesson 
learned and then a couple of suggestions.
    The big lesson learned is that Russia either cannot or will 
not deliver major Syrian concessions even on something as 
simple as humanitarian aid access.
    Going forward, what I am looking for out of the discussions 
in Vienna today is whether or not there is, number one, an 
agreement among all of the people at that table in Vienna about 
a monitoring mechanism. Otherwise there is a lot of finger-
pointing about who violated what cessation of hostilities 
detail.
    And the second I am looking for is an agreement among the 
countries at that table that whoever is determined to have 
violated the cessation of hostilities--there will be penalties 
for doing that. There were no penalties imposed at all.
    Senator Cardin. What kind of penalties, sir?
    Ambassador Ford. It could be anything from allied states 
who are pumping in weapons to say we will stop if you continue 
to violate the ceasefire. It could be diplomatic pressure in 
terms of booting out an embassy or demanding publicly that that 
behavior must stop, and if not, there will be consequences. I 
imagine it would be graded over time if the violations 
continue. The group on the ground who has foreign friends would 
come under greater and greater pressure. But there are no 
penalties at all now. None.
    And so those would be the lessons I would take.
    Senator Cardin. Iran. Do you want to comment as to whether 
Iran needs to be part of these discussions and how do we handle 
that participation by Iran in these peace talks when, at least 
to many of us, we think their major interest is to keep 
conflict brewing?
    Dr. Wittes. Thank you. Well, let me try to address that.
    I think that Iran, as I said, is the one issue that unites 
the United States and all of its partners around the table in 
Vienna. There are other issues on which they disagree. So I 
think that we need to keep that coalition strong.
    Iran's primary objective in my view is not necessarily to 
keep the war going but to keep the Assad regime in power, to 
keep this Alawi regime in power.
    Senator Cardin. That keeps the war going.
    Dr. Wittes. Yes, I agree.
    But they would, I think, settle for, if forced, even a rump 
Assad regime that did not maintain control over all of Syria 
because they need it as a conduit to Hezbollah and a strategic 
depth for Hezbollah.
    Senator Cardin. My conversation with a lot of the players 
is that that will not bring peace to Syria.
    Dr. Wittes. I would certainly agree and it might not bring 
peace anywhere else in the region either.
    Ms. Lindborg. Senator, I would just add that what also 
unites the parties at the table is the fact that chaos and 
conflict continues to benefit some of the armed extremist 
groups who are no positive benefit to any of the actors. So 
there is a united desire to take action in such a way that 
those groups are curtailed, number one.
    And number two is the longer this conflict rages on, the 
longer there is a shared terrible impact from the outflow of 
refugees and the destruction of the economies and the 
infrastructure regionally. So there is a shared interest in 
coming to some conclusion.
    Senator Cardin. There is no question there are shared 
interests. The question is how do you overcome the individual 
issues that have blown up the process in the past. We recognize 
it is challenging. And I think you have offered--particularly 
having some degree of accountability, Mr. Ambassador, I thought 
was a good suggestion. Thank you.
    The Chairman. Senator Perdue?
    Senator Perdue. Thank you. I have two brief questions.
    Dr. Wittes, you had mentioned earlier--and I want to come 
back to this. Merkle has asked that safe zones be discussed 
again with a potential of no-fly zone support and so forth. 
That did not seem to be very viable earlier when they were 
discussed. What would make that more workable today?
    I visited with refugees personally in Jordan, also in the 
Nizip camp near Gaziantep in Turkey, and also have seen them in 
the refugee pipeline up in Serbia. In my opinion, these people 
do not want to leave their country. They want to stay there, 
but obviously the conditions there are so bad, they have been 
forced to.
    I have one question about that in terms of--quickly, if you 
can respond to. Is it now possible, given the failure of this 
first attempt at cessation of hostilities--is it now not an 
opportunity to go back and revisit the safe zone opportunity?
    Dr. Wittes. If we see a cessation of hostilities as not 
only a way to reduce human suffering but also a way to work 
toward the end of conflict, then it is clearly preferable as a 
first step than safe zones. And I think that they are taking 
another go at it. I do not think they have given up yet.
    But if in fact those parties in Vienna cannot agree to a 
meaningful ceasefire, then I think pressure for safe zones will 
grow. And we have seen what the Europeans have done. Trying to 
restrict the flow through Turkey is only having limited impact. 
We see Syrians now going into north Africa to try and cross the 
Mediterranean and get into Europe that way. So they are 
searching for a solution to this problem.
    Senator Perdue. The second question on Russia. You 
mentioned Russia earlier. It sure seems to me that they have a 
long-term interest in Syria, not Bashar al Assad. With what 
they have done in the airbase at Latakia and in the naval base 
at Tartus, they look like they are there permanently. This fits 
in very well with their strategy in Crimea as well.
    So what is the long-term role that they play? They 
certainly have not come to the realization and agreement that 
Bashar al Assad has to go. How do they play into where we go 
from here honestly?
    Dr. Wittes. You know, I think the administration has spent 
the last 4 years trying to persuade the Russians to shift their 
position in Syria without success. And that leads me to a 
similar conclusion to the one that Ambassador Ford gave in his 
testimony, which is that they are either unable or unwilling. 
And I am honestly not sure. It could be a bit of both because 
the Syrians also have very robust Iranian backing that is 
directed at saving Bashar al Assad.
    Now, for the Russians, it is about a place at the table. It 
is about having a state rather than state collapse because they 
believe that is what will enable Sunni extremism to migrate in 
their direction, as well as about preserving those assets that 
you described. So in theory, it is possible to arrive at a 
solution that meets their needs. I just do not see a lot of 
willingness on their part to move there in practice.
    Senator Perdue. Ambassador, you mentioned several things 
you would have us do in terms of dealing with the refugees. 
What would have us do politically to encourage a ceasefire and 
really to move toward removal of Bashar al Assad, which is our 
position right now? And are we ever going to be willing to give 
up on that? I hope we will not. But what is our position now 
relative to the failure of the cessation of hostilities? What 
would be your recommendation right now in terms of our position 
vis-a-vis a renewed round of negotiations relative to a 
ceasefire? Or you mentioned the military side as well. But 
would you respond to that?
    Ambassador Ford. Very briefly, Senator.
    With respect to a cessation of hostilities, obviously the 
United States wants it. There are modalities I mentioned about 
accountability and penalizing people who are determined 
responsible for violations.
    The broader goal of solving the Syrian crisis--the American 
strategy has always been to get to a negotiated solution 
between Syrians. I think that makes sense, but we have never 
had tactics to achieve that strategy. And it is very clear to 
me that unless there is a great deal more military pressure on 
Bashar al Assad, he will not make substantial compromises.
    Senator Perdue. And where would that pressure come from?
    Ambassador Ford. Well, the pressure needs to come from 
armed opposition groups on the ground.
    Let me give you an example of what I am talking about, 
Senator. In July of 2015, President Assad in a national speech 
in Syria said our forces are tired. We are having to withdraw 
from towns and cities that we do not want to withdraw from, but 
we have to because we do not have enough soldiers. People are 
not signing up for the army. They are running away from 
national service. They need to stay. His entire demeanor was 
very downbeat.
    Senator Perdue. I am sorry to interrupt, but you know, you 
got the Kurdish YPG and the SOC have terrible relationships. I 
mean, where is this opposition going to really come from?
    Ambassador Ford. As I was saying, Senator, last July Assad 
himself was admitting that his forces were losing on the 
battlefield.
    Senator Perdue. That was a year ago and they are still----
    Ambassador Ford. Well, that was 9 months ago before the 
Russians intervened.
    After the Russian intervention, to me the logical thing--we 
were talking a moment ago about Iran, which has ground forces 
in Syria. In order to get them to negotiate, they will have to 
feel more pain. But I do not want American forces to do that. I 
think there are fighters on the ground that can do that.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank you all for your testimony.
    I agree that 1,800 refugees being taken in by the United 
States this year from Syria is unacceptably low. We have a far 
greater responsibility to deal with the human suffering that 
has been created in that region. We are part of the creation of 
the problem. We have to be part of the relief valve to help 
these families. And so we thank you for that. 1,800 is just too 
low.
    So what I'd like to do is just follow up on what Senator 
Perdue was talking about and that is looking at this 
interaction between Russia and the United States, especially in 
light of these reports where Al Qaeda now is intending to move 
in more deeply into Syria to partner with Al Nusra and to 
declare a caliphate. No small moment in Syrian history if that 
does happen, creating a tension not only against Assad but 
simultaneously against ISIS, a really complicating problem.
    So if I could come back to you again, Ambassador Ford--and 
thank you for your service. Could we go to, again, this issue 
of Russia and the United States agreeing on a chapter 7 
enforcement action so that we can create the space for 
humanitarian aid to go in, we could create some space where 
additional weaponry is not being introduced into that region, 
and that the United States and Russia can agree at the U.N. in 
Geneva--that that would be a pathway forward? What would it 
take for that kind of an agreement to be reached?
    Ambassador Ford. During my time in government, Senator 
Markey, the Russians were extremely averse to any kind of 
Chapter 7 action against the Syrian Government. I would add 
that Iran is now sending in fighters directly, as well as 
weaponry. They are even organizing Shia to come from places 
like Iraq and Afghanistan to fight in Syria. And so it would 
have to be Chapter 7 not only against the Syrian Government but 
potentially against Iran. And I can imagine that that is going 
to be not easy for people in Moscow to swallow.
    Senator Markey. So in your opinion then that whole process 
just cannot come to anything because the Russians would be 
unwilling at any time to stand up and say that the Iranians as 
well must be bound by any restrictions that are placed on the 
transfer of humanitarian aid into these troubled areas and the 
maintenance of a ceasefire so that these people are not caught 
in the crossfire?
    Ambassador Ford. Senator, I am not aware of any American 
efforts in the past year to take humanitarian assistance issues 
to the United Nations Security Council and try to get an action 
under Chapter 7. And I think it would be useful to pin the 
Russians on that frankly. I think it would be very useful. I do 
not think we have tried it, but I would just caution you that I 
do not think the Russians are likely to cave very easily.
    Senator Markey. Even on humanitarian aid.
    Ambassador Ford. Even on humanitarian assistance.
    Senator Markey. Ms. Lindborg?
    Ms. Lindborg. Senator, if I could just comment on that. 
Beginning in February 2014, there was the first of, I think, 
about four different resolutions passed on this issue, all but 
the Chapter 7 provision. They have all had no teeth in them 
whatsoever. It has been a hard-fought but unanimous vote. You 
would not get it passed based on that experience if you tried 
to put any teeth into it. I think they walked it as far and as 
hard as they could and got repeated blocks. What we are seeing 
now is a possible alternative in the Vienna process that 
hopefully will take us further than what we have been able to 
do in the Security Council.
    Senator Markey. Well, I think that if the Iranians seem to 
feel that they are exempt from this process and they are a 
continuing and increasing problem in Syria, then unless the 
United States raises this issue in a formal way that puts 
Russia on the spot, then I am just afraid we are going to see 
again a repetition syndrome that escalates inside of Syria.
    So, Ambassador Ford, coming back to you again, would you 
recommend that the United States bring this in a much more 
focused way to the Russians as an issue that we force them to 
vote upon?
    Ambassador Ford. Senator, I would, and I say that with 
great respect to former colleagues because the amount of work 
that goes into taking an issue to the Security Council and 
pushing on a resolution with Chapter 7 sanctions--the amount of 
work is enormous. But I do think it is useful to force the 
Russians to publicly--publicly--either defend the Assad 
government's actions blocking humanitarian access or to accept 
that there should be some Chapter 7 measure against the Syrian 
Government and against any other group----
    Senator Markey. So if it applied to Assad and the 
opposition groups, could Russia support it?
    Ambassador Ford. I do not think they would, Senator.
    Senator Markey. We have to press that question.
    Thank you.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. I am going to let Senator Johnson go.
    The Chairman. He kind of came in first, but I will let you 
guys arm wrestle.
    Senator Rubio. No, I am not going to arm wrestle. 
[Laughter.]
    Senator Rubio. I think he has got to be somewhere. I do not 
have to be somewhere for a few more minutes. So go ahead.
    Senator Johnson. Sorry about that.
    How long have we been talking about a negotiated 
settlement? Ambassador Ford.
    Ambassador Ford. Since 2011.
    Senator Johnson. Is it not true that diplomacy follows 
facts on the ground?
    Ambassador Ford. Sometimes it can get out in front of facts 
on the ground, but facts on the ground will definitely 
influence diplomacy.
    Senator Johnson. So the fact on the ground is that Iran has 
gained strength. Correct? We do not know exactly how many 
billions have been injected into their economy and military, 
but they are gaining strength. Correct?
    Ambassador Ford. I would put it this way, Senator. There 
are more Iranians and Iranian-backed militias in Syria now than 
a year ago or 2 years ago.
    Senator Johnson. So Iran is gaining strength in Syria.
    Russia has, obviously, entered the war and certainly the 
opposition is weakening. Correct?
    Ambassador Ford. It is a stalemate for the most part, 
Senator.
    Senator Johnson. The opposition certainly is not gaining 
strength.
    Ambassador Ford. Yes and no. But it is basically a 
stalemate, Senator.
    Senator Johnson. So how do you create any kind of pressure 
on either the Assad regime or Iran or Russia to make any 
concessions whatsoever in a negotiation?
    Ambassador Ford. As I said before, Assad himself was 
admitting defeats last July, and that is what brought the 
Russians in. So my question then would be is there no way to 
facilitate additional supplies to the armed opposition to get 
us back to where we were last July.
    Senator Johnson. Are we not deluding ourselves thinking 
that we can achieve some kind of negotiated settlement and some 
kind of ceasefire in Syria before Russia, Assad and Iran have 
achieved their aims? Why would they stop?
    Ambassador Ford. I think the Iranians in particular are a 
bit sensitive about their casualties. They try to keep the 
number of their direct forces down. That is why they are 
sending in Afghans and Iraqis. But they have taken a lot of 
losses among their officers in Syria, which is interesting.
    And I do not think the Russians are particularly attached 
to Assad. The question is are they willing to use any leverage 
to get a replacement, and I have not seen that willingness.
    Senator Johnson. I remember in testimony before this 
committee, the administration making the point that Russia is 
going to regret going into Syria. They are going to enter a 
quagmire there. This is going to be terrible for Russia. Has it 
turned out that way? Do you think they are regretting their 
involvement right now?
    Ambassador Ford. No, I do not think they regret it, but 
they have not won either.
    Senator Johnson. Dr. Wittes, do you have anything to add to 
this?
    Dr. Wittes. I guess I would just say that the Russians had 
modest goals for their intervention, which was resetting the 
balance in Assad's favor. They achieved those goals. If they 
can sustain that at modest cost, I think they will be happy. So 
Ambassador Ford is suggesting that we find ways to increase the 
cost, and I think that is an appropriate avenue.
    Senator Johnson. So, again, short of something pretty 
dramatic happening to change that equation, change that balance 
of power, the facts on the ground continue to favor Assad, 
Russia, and Iran.
    Dr. Wittes. If I may make one more point. You know, I think 
there have been some suggestions made recently in the 
commentary that perhaps the United States should not be so 
stuck on the idea of Assad's departure as part of a peace 
settlement and that letting go of that demand might allow some 
kind of U.S.-Russian condominium. I actually think that rests 
on some faulty assumptions.
    First, as we have seen, it is not clear the Russians have 
the will or ability to exercise leverage over Assad. But more 
than that, if you look at other cases of civil wars settled 
with the help of outside powers, you can get that international 
agreement, but you still have to impose it on the parties on 
the ground. And in the Bosnian case, for example, doing that 
required a set of Croat military victories, and then it 
required a NATO air campaign. So I do not think we can look to 
diplomacy alone to settle this.
    Senator Johnson. Thank you.
    Thank you, Senator Rubio and Mr. Chairman.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin, for convening this important hearing and to all 
three of you for your lengthy and important public service and 
for your testimony here today.
    The grinding, brutal nature of the humanitarian crisis in 
Syria is something that has, I know, occupied you and many on 
this committee for years and is one of our greatest 
unaddressed, unresolved tragedies of the modern era. So let me 
try to ask briefly three different questions across three 
different topics and then leave you in turn to answer them.
    First, about Iran's role and the distinctions between 
Iran's role and Russia's role and their intentions. You have 
all at different points talked about we need to find ways to 
increase the cost on the ground. There are slight differences 
in priority between Russia and Iran, but Iran has doubled down, 
has sent in forces, has sent in militias. And that is really 
the only thing that has shifted the balance on the ground and 
the momentum in Assad's favor and has significantly complicated 
the path forward towards any kind of lasting cessation in 
restoration of humanitarian aid.
    Why not now move to plan B, to significantly increasing our 
train and equip mission and investing in finding forces on the 
ground that will oppose Assad in a meaningful and sustained 
way? I can imagine the critiques of that, but I would be 
interested in hearing yours rather than mine.
    And then second, if I might, there is an upcoming 
conference, Ms. Lindborg, in Istanbul. I strongly agree with 
your view that we need to recalibrate humanitarian assistance 
from being emergency and temporary to recognizing that a whole 
generation of Syrians will likely grow up in the midst of 
conflict and outside their native country, and we have to begin 
investing in human development in order to have any hope for a 
next generation of Syrians capable of carrying out a peace in 
that country once restored.
    Kenya is currently making, I think, really unfortunate and 
threatening gestures about the tens of thousands--hundreds of 
thousands of Somali refugees in northeastern Kenya. The reality 
is they have lived there more than 20 years. And so we have to 
accept that many who are currently refugees may well be 
refugees for decades.
    How do you expect the model of development to change at the 
Istanbul conference, and what, frankly, could we in the Senate 
do to provide support whether for some new strategy on the 
ground in Syria that might change the balance on the 
battlefield? And how do you imagine that we could peal Iran and 
Russia apart in their views? And then how do you imagine we 
might be more effective in supporting a change in the 
humanitarian delivery and the long-term prioritization of 
humanitarian assistance? I would be interested in your response 
to those questions, any of the panel.
    Dr. Wittes. Thank you. Let me kick it off with Iran and 
Russia.
    First, I would say that what shifted the dynamic on the 
battlefield is the Russian intervention, not primarily these 
Iranian militias and IRGC commanders. The militia presence I 
think is an indication that Iran is sensitive to the costs of 
this intervention, just as Russia's announcement of its 
withdrawal, although it did not in fact withdraw much, is 
evidence of its sensitivity to cost. Hezbollah, for its part, 
has lost 1,000 people fighting in Syria, and it has to answer 
to its Lebanese constituency for that. So none of these parties 
are insensitive to the price they pay for supporting Assad, and 
some of them are more cost-sensitive than others. So if you 
want to peal them apart and you can increase the cost, some of 
them will start to step away, probably the Russians first as we 
have been discussing.
    Now, on the train and equip question, the first thing I 
would say is that even in the best case scenario, that is a 
very long-term strategy. That is a multiyear strategy. And the 
administration's early efforts here were too little and, some 
would argue, too late as well to make much impact. So if we are 
going to kick that off again, we should expect that to operate 
over a 3- to 5-year time frame minimum.
    And then, of course, the other barrier so far has been the 
American priority on fighting ISIS in Syria. And so the 
administration would have to be willing to shift its priority 
set. It would be much more in line with our regional partners 
who are dealing with the Syrian conflict. They would like to 
see us turn our attention to Assad first and ISIS later. But I 
think that that is something the American people might not feel 
the same way about. We have seen in public opinion a strong 
shift that creates a better environment for the United States 
to invest in fighting ISIS because of the fear of ISIS. But I 
am not sure that there is sufficient consensus here that the 
broader Syrian conflict or removing Bashar al Assad is 
something that we want to invest in.
    Senator Coons. I am almost out of time. Ms. Lindborg, if 
you could just answer the humanitarian question, please.
    Ms. Lindborg. Thank you, Senator Coons.
    You know, despite the urgency of the situation, for 2016 we 
are still only seeing 23 percent of the humanitarian appeal 
being funded globally, 23 percent of $4.5 billion. So at a time 
where people urgently need assistance and we have refugees 
overwhelming country systems, it is severely underfunded.
    The World Humanitarian Summit in Istanbul next week, which 
is the first of its kind, is really seeking to look at a global 
system that is crushingly overburdened, driven by Syria but 
also by protracted crises like Kenya that have persisted for 
decades. We are seeing 80 percent of global humanitarian 
funding now going to conflict-affected crises. A decade ago, it 
was 80 percent to natural disasters.
    So we need to rethink how we provide both development and 
relief assistance so that we tackle the roots-of-conflict 
earlier--before we are forced to rely on gigantic needs for 
peacekeeping and humanitarian assistance. There is a big effort 
to increase both effectiveness and efficiency. We need to have 
more donors who are in the system, but we really need a 
different kind of approach that blends the emergency response 
with the longer-term support; support for youth, for education, 
for livelihoods, for psychosocial impacts, and for the kind of 
rebuilding of social cohesion at the community level when it 
has been torn apart by these conflicts. These factors will lead 
to repeated cycles of conflict if we do not invest as much in 
them.
    So this is an opportunity for a gigantic reset. I think it 
will probably be the opening of a door instead of the end of a 
conversation. It will require ultimately support from you, 
Senators, to enable the U.S. to be a leader in rethinking the 
kind of flexibility that we need to work at the community level 
in very complex environments.
    Senator Coons. Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you.
    Ambassador Ford, you have heard this today and some of the 
questions kind of allude to the fact that there is no one to 
work with. Is it not true that until the Russians began 
airstrikes in September, non-ISIS, non-jihadist, Arab local 
forces were making significant military gains and that in fact 
that was the reason why Russia began to conduct airstrikes last 
September?
    Ambassador Ford. Precisely. That is what Bashar al Assad 
admitted in his speech to the Syrian nation at the end of July 
2015.
    Senator Rubio. And in fact, the Russian airstrikes have 
been largely targeted at the non-ISIS fighters for much of the 
conflict because Assad is trying to create a binary choice for 
the world between the Islamists and himself.
    Ambassador Ford. I think that is accurate.
    Senator Rubio. And as long as Assad is in power, will there 
ever be peace in Syria? I will give you an example. I watched 
recently a program on Frontline called ``The Children of 
Syria.'' It followed some children for 3 years. And one of the 
children, a very young child, 8 or 9 years old said into the 
camera if I ever get my hands on Bashar al Assad--I forgot the 
exact term--I am going to torture him, kill him, strangle him, 
the point being you now literally have millions of people who 
have seen loved ones killed, cities entirely wiped out. The 
bottom line is as long as Bashar al Assad is in power, there 
will be some other group that will rise up and resist his rule. 
As long as Assad is there, there is not going to be peace in 
Syria.
    Ambassador Ford. I think that is accurate, Senator. I would 
just say it is not only Assad, it is an entire security 
apparatus that has terrorized Syrians for decades.
    Senator Rubio. My question to you and to Wittes is, is it 
time to start thinking about the reality that perhaps Syria, as 
we have known it, its existing borders as a unitary nation, 
that the fact is it may never again be possible to bring all of 
these communities to share a common nation given what has 
transpired over the last few years? I am sure that is not the 
ideal outcome, but is that where we are headed?
    Ambassador Ford. Senator, it may be that in the end Syrians 
decide that partition is better. It may be. I do not know. No 
Syrian now is calling for it, and I do not think it can be 
imposed--a partition can be imposed. It is different that way 
from Bosnia, say, and the Balkan experience.
    I think in the meantime what needs to be done is to try to 
help Syrians build bridges across very bitter divides. And I 
would like to see much more effort complementing whatever the 
United States is doing through formal diplomatic efforts. I 
would like to see more effort on informal efforts, offline 
meetings between Syrians, civil society organizations because 
that is the only way to lay a foundation to get past the bitter 
fighting we have----
    Senator Rubio. And I do not know the answer to the 
questions. That is why I asked. Is there enough a Syrian 
identity, separate from sectarianism, separate from tribalism? 
Is there enough of a Syrian identity to unify a nation around?
    Ms. Lindborg. If I could just chime in. There is certainly 
a long history of communities living and working with one 
another. And we see in both Syria and Iraq that tensions have 
been exacerbated and inflamed because of the respective 
conflicts. But my institution, the U.S. Institute of Peace, has 
experience helping to broker negotiations between Sunnis and 
Shias, for example, in Tikrit that enabled hundreds of 
thousands of people to return. You can build peace from the 
ground up, but it has to be within a framework for a larger 
pathway forward.
    Dr. Wittes. Let me perhaps make a broader point which is I 
do not think the problem here is about borders. I think the 
problem is about politics. This is how people settle their 
differences peacefully. If they cannot settle their differences 
peacefully, they are going to do it violently. And when 
politics does not work, when your government betrays you and 
turns its guns on you, then you revert to other ways of telling 
friend from foe and you look for other people with guns who can 
protect you. That is what is going on. That is not an 
irreversible process.
    And I would say too that I do not see any place you can 
draw lines that will automatically end the fighting because 
people are not fighting over square inches of land.
    Senator Rubio. Let me ask this. This is relevant to the 
last point I wanted to raise before I run out of time. We are 
about to go through a pretty significant conundrum between 
Turkey and the Kurds up north in the Manbij Pocket that there 
is going to be an effort to close. The Kurds say--and they are 
important in this effort and they are a NATO ally--that the YPG 
elements in the north of the country that are trying to unify 
the cantons are basically the PKK, their moral enemy, and that 
once they unify the cantons, the next step is to come across 
the border.
    On the other hand, others like the United States would 
argue that the YPG and others are the only group up north that 
can be worked with that have proven effective.
    Is it in fact the goal of the YPG to not just engage in 
this closing of the Manbij Pocket but to establish across the 
northern part of Syria, unify the cantons from Afrin all the 
way to the east, and create their own state? Is that not what 
they are calling for now, is the creation of their own state?
    Ambassador Ford. Senator, they have not publicly said they 
want to create a state, but they have already announced an 
autonomous zone. Their model is something like what the Iraqi 
Kurds have in northern Iraq.
    Senator Rubio. The Iraqi Kurds want their own state now. So 
that would be the next step I guess.
    Ambassador Ford. It might very well be.
    Absolutely they want to take that pocket and create a 
contiguous region. There is no question about that. And that is 
why the Turks have reacted badly.
    May I just say one thing? The YPG, that militia that the 
United States has been supporting, is absolutely affiliated 
with the PKK.
    Second, there are other groups that are operating up there 
that have been fighting the Islamic State but also fighting the 
Bashar al Assad regime. They have never gotten the kind of 
support that the YPG has received. They have never gotten the 
kind of close combat air support that that Kurdish militia has 
received. You can ask the administration why that is.
    I do not believe that the YPG is an irreplaceable element 
of an American strategy against the Islamic State.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you. Thank you all very much for 
being here today.
    Ambassador Ford, I certainly agree with you that I would 
like to see more focus on humanitarian aid, that we should do a 
much better job. I think all three of you have said that. I 
think the United States should do much more to accept Syrian 
refugees, and I think it is disappointing that we have an 
election cycle that seems to be inhibiting that in the way that 
it is.
    But one of the things I also heard I think all three of you 
agree on is that until we remove Assad, the fighting is going 
to continue and that the only way we are going to get Assad to 
consider negotiations and all of the parties to consider that 
is by putting greater military pressure on him. And what I do 
not understand, Ambassador Ford, is how we are going to be able 
to do that if the train and equip mission has not worked, the 
opposition groups have not been successful. I mean, I am not in 
favor of putting U.S. troops on the ground there, but how do we 
accomplish that end of putting greater military pressure on 
Assad if we are not willing to do anything that is actually 
going to do that? I mean, I throw that out to all three of you. 
How does that happen?
    Ambassador Ford. Frankly, Senator, it does not happen 
unless the United States, working with regional partners, 
provides greater material assistance to the armed opposition. I 
would not do that without making it part of a broader strategy, 
a political strategy. But it has to be one element, an 
important element, of that broader political strategy, 
otherwise frankly I see no positive outcome from a Geneva peace 
process even if it does restart.
    Senator Shaheen. But let me explore that just a little bit 
further because it seems to me that we are now more willing to 
provide arms and equipment to opposition fighters, but it does 
not seem to be having the kind of positive impact that we would 
like. So I guess I am not sure how that gets us where we want 
to go. And maybe somebody else would like to respond.
    Dr. Wittes. Well, I will make one more note about the 
nature of the support that has been provided to those fighting 
Assad in Syria. The U.S. support, of course, is being provided 
to groups that are fighting ISIS, and that is because the U.S. 
priority is the defeat of ISIS. Our partners in the region are 
divided. Some of them have a priority of defeating ISIS. Some 
of them have a priority of defeating Assad. Now, I think we all 
agree that both those things are important. It is a question of 
which is primary.
    But in the absence of sufficient coherence within our 
friends and partners on that set of priorities, the assistance 
is not being directed in a unified manner, and it is not being 
directed against a political strategy. And you see instead the 
different regional actors are backing their favorite factions 
in a way that is inefficient and ultimately ineffective on the 
battlefield.
    Senator Shaheen. Thank you. That is helpful.
    Because my time is short, I want to also explore the 
comments about supporting local civil society groups and local 
communities because I certainly agree that that makes a lot of 
sense as an alternative to a central government that can be 
stable. But I think one of the challenges has been how to do 
that in a way that is consistent, that actually gets support to 
those communities when they are in the middle of a civil war. 
So I wonder if you could elaborate on that a little more, Ms. 
Lindborg and then perhaps Dr. Wittes as well.
    Ms. Lindborg. Sure. Thank you.
    There has been, actually, considerable effort by the U.S. 
Government and a number of USAID partners to provide support to 
local provincial councils, to local civil society groups, as 
well as to a really courageous group of first responders called 
the White Helmets. Underneath what we see and what we hear 
about, there is still a remarkable amount of activity and 
action and leadership on the ground by Syrians. It is 
critically important to support that to help it expand. That 
will be the foundation of a future Syria.
    Senator Shaheen. Okay. Well, excuse me for interrupting. So 
what are you suggesting that would be more effective than what 
we are doing? Increasing the amount of assistance that is going 
to those groups?
    Ms. Lindborg. Supporting its continuation, expanding it 
when possible because it varies depending on who is controlling 
territory at a given time. But this will be part of a longer-
term strategy that extends into a future for Syria.
    Senator Shaheen. Well, that is what I was going to ask, and 
I am out of time. I know that. But how long into the future? 
Because what you are talking about is a decades-long strategy. 
Is it not?
    Ms. Lindborg. It is both immediate because the local 
structures are providing some stability in certain parts of 
Syria for their community members, and they will provide the 
nucleus for a future of Syria into the future, however long 
that becomes necessary. This is a very important part of the 
strategy, though, because Syrians--and it has been alluded to 
by all three of us--Syrians beyond the armed groups have to be 
a party to negotiations, to local conversations, and 
opportunities to envision a peace.
    Senator Shaheen. Thank you.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Ambassador Ford, I wanted you to maybe touch a little bit 
more deeply on your skepticism about the effectiveness of U.S. 
combat troop deployments into Syria. You know, our deployment 
in the region certainly is not as deep as it was during the 
Iraq War but it is frankly broader and wider than ever before. 
We now have troops in Iraq, in Syria, in Yemen. Of course, the 
history of our engagement in places does not tell you that thin 
deployments get thinner. It tells you that they get thicker 
over time.
    So you had some strong words in your opening statement 
about your unwillingness to endorse broader deployments but 
your discomfort with the existing deployments. Can you just 
talk a little bit about your fears in this respect?
    Ambassador Ford. Three comments.
    Number one, we have gained--our side, our allies in Syria 
and in Iraq, have gained a lot of ground against the Islamic 
State. And that is a good thing. That is a good thing.
    But, number two, as we saw in Iraq, Senator, what do you do 
on the day after? I was just speaking a little while ago with 
Senator Rubio about the Kurdish militia that we have relied 
upon. That Kurdish militia has been accused of war crimes by 
groups like Amnesty International. In some cases, Syrian 
refugees flee it and do not go towards the Kurdish areas. They 
run away from them. They go into Islamic State territory, which 
tells me that governance is an issue. The Kurds cannot provide 
that governance. Who is going to provide it? It cannot be 
American special ops. So there is a lot more to this than just 
sending in special forces.
    And number three, there is a price for sending in American 
forces which is it does play right into the recruitment videos 
of the so-called caliph and others who say this is a jihad 
against the hated Americans. It is harder for them to say that 
when they are only fighting Syrian Muslims, whether they be 
Kurds or Arabs.
    Senator Murphy. Dr. Wittes, I wanted to sort of give you a 
chance to respond in part to what Senator Shaheen was raising 
and maybe in this context. So that sounds wonderful, a future 
Syria in which local communities are empowered to work for 
themselves and protect themselves. The recent history of the 
Middle East would not suggest that that is a paradigm that can 
last. What we have mostly is either strongmen or chaos. And 
even a place like Lebanon which certainly has more local 
community empowerment than others, it is still required there 
to have a very complicated Rube Goldberg scheme of national 
governance that provides cover underneath.
    So answer Senator Shaheen's question about why this 
matters, empowering local communities, but then also address my 
skepticism that that is a sustainable solution in a region that 
does not have a lot of evidence that there is a middle ground 
between strong central governance or chaos.
    Dr. Wittes. Thank you, Senator. I think that is a 
fantastically important question not only for Syria but for the 
region as a whole. And it is an important question because that 
is precisely what the Arab world is struggling with right now, 
the collapse of an unsustainable political model of 
authoritarianism. These strong central governments failed their 
people, and everybody knows it. And the result is that there is 
intense skepticism among Arab citizens, particularly young 
Arabs, not just about central governments or strongmen, but 
about political parties, about politics in general, about 
religious institutions or other people who stand up and claim 
to tell them what to do and what to believe. And in an 
environment where citizens have that much frustration and that 
much skepticism, what they really want is their own voice and 
their own choice, and I think that means local empowerment.
    You see that in other countries around the region. Morocco, 
for example, has committed to a path of decentralization that 
is pushing budgets and decision-making down to the local level. 
So I think that governments are already recognizing----
    Senator Murphy. Let me sneak in one last question. But are 
you going to get to that place by the United States picking and 
choosing what local communities get funding and support and 
what do not?
    Dr. Wittes. Okay. Thank you. And that does give me an 
opportunity to link up to Senator Shaheen's very good question.
    I think there are some specific things that the United 
States can do, although most of this has to be done in and by 
the region. In the Syrian context, I would point to a couple of 
things.
    One is that right now the support that is being provided to 
these local councils in northern Syria is being provided across 
the Turkish border. And as you know, we are working very hard 
to close that border to prevent jihadis from going back and 
forth. So the United States needs to work with the Turkish 
Government to ensure that the civilian aid and the civilian 
workers, the Syrians who are getting trained and going back 
into work with their own communities can get back and forth 
across that border. That is one very specific thing the United 
States can do.
    A second thing I do not think we are doing much of right 
now and I think we could do a lot more of is working with 
refugee populations who are outside of Syria, in some cases 
quite far away, to help them build the skills and platforms for 
dialogue, for conflict resolution so that they can plug into 
this stuff when and if they are able to go back. There is no 
reason not to start working on that now, and no one else is 
doing it.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Having used none of my time, I just want to ask one brief 
question. Ambassador Ford, this conflict has evolved. And we 
had a tremendous opportunity I felt in September of 2013 when 
the red line was crossed. We had a 10-hour operation planned 
off of the Mediterranean, no boots on the ground, at a time 
when the moderate opposition had tremendous momentum to really 
sort of recalibrate and push Assad back.
    I am struck by your comments, your consistent comments, of 
sort of lesser U.S. engagement. And I am just wondering has it 
always been that way or has it been because of the way the 
conflict has evolved and we let it get to a place where you now 
feel that greater U.S. engagement is not as useful.
    Ambassador Ford. Senator, I have never been comfortable 
with having American combat forces in Syria. I have always 
thought this was, first and foremost, a Syrian fight. There is 
no perfect angel in this civil war, but there are some that are 
much worse than others. And I think the American policy should 
be aimed at helping those who accept that there needs to be a 
genuine political solution and a political process out of that 
solution that allows Syrians to choose their own form of 
government. I do not think special operations forces, as good 
as they are--and they are fabulous--they can govern the spaces 
that are going to be liberated from the Islamic State, and I do 
not think they should be choosing--I do not think they should 
be choosing who governs those spaces either. I worry that given 
the fragmentation among Sunni Arabs, they will just start 
killing each other, and if we do not insist on a process by 
which they choose, I fear that it is going to go very bad 
again, just as western Iraq did.
    With respect to material assistance to the armed 
opposition, Senator, I think I actually have been pretty 
consistent over the years.
    The Chairman. I think most of the committee has been too, 
as has Congress. It just has not happened--appropriately 
happened.
    Senator Flake?
    Senator Flake. Thank you, and I apologize if some of this 
ground has been covered.
    The New York Times reported over the weekend that al 
Qaeda's top leadership has decided that its future lies in 
Syria and that it has dispatched more than a dozen of its 
seasoned veterans there. Is this your understanding, Ambassador 
Ford? Is that happening, and if it is, how is that going to 
complicate the situation there? Talk about the interplay 
between al Qaeda and ISIS.
    Ambassador Ford. The Nusra Front, the al Qaeda affiliate in 
Syria, has been gaining ground for most of the last 2 years. I 
have seen these reports about them declaring a caliphate or 
intending to. I do not think they have reached a final decision 
on that, Senator. If they do, it will complicate greatly their 
relations with other Syrian opposition groups on the ground and 
their relationship with other Syrian opposition groups--I am 
not talking about the Islamic State, but in northwestern Syria 
where there is no Islamic State. It will greatly complicate 
their relations up there.
    Senator Flake. Is there, as The New York Times is claiming, 
a renewed emphasis on Syria by al Qaeda and injecting more of 
its forces there?
    Ambassador Ford. Absolutely. Zawahiri in Central Asia, 
wherever he is, South Asia, has been paying more attention to 
Syria. He has sent envoys to try to line up the leadership of 
the Nusra Front, the al Qaeda affiliate in Syria. So they are 
absolutely paying attention.
    I do not think they have a finalized decision on what 
strategy to pursue. And so they are paying more attention to 
it. They are sending more people, as you said. But I think they 
are still in their own internal deliberative process. The key 
thing to watch for, Senator, is whether or not they declare a 
caliphate of their own.
    Senator Flake. Ms. Lindborg, did you have any thoughts on 
that?
    Ms. Lindborg. I would simply reiterate and underscore 
something I said in my earlier comments: the importance of 
really paying attention to a generation of Syrian youth who 
have been dispossessed. They are without educational or job or 
future opportunities. That leaves them much more vulnerable to 
predatory employers, human trafficking, and violent ideologies. 
We ahould be relentlessly focusing on assisting a generation of 
Syrians who are currently uprooted.
    Senator Flake. Ambassador Ford, if no one there really 
believes that we will put ground forces or a significant number 
of ground forces there, what leverage do we have in Syria? And 
is it more leverage than we had 2 years ago, or is it less?
    Ambassador Ford. I think we have less leverage than we did 
2 years ago, Senator.
    Senator Flake. How is that?
    Ambassador Ford. The Russians have combat forces in Syria. 
That has increased their leverage. The Iranians now have their 
own combat forces in Syria. That has increased their leverage. 
And I think frankly Turkey, Saudi Arabia, and other countries 
in the region who have been fighting against Assad I think look 
at this administration and perceive that it is not consistent 
with respect to what is happening in Syria and the American 
response. And therefore, our credibility with those governments 
has diminished.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Well, thank you, Mr. Chairman.
    You know, last month, the U.N. Special Envoy Staffan de 
Mistura said that Syria--the conflict there has claimed nearly 
400,000 deaths. Some estimates place that closer to a half a 
million; 4.5 million have fled the country since the start of 
the conflict, most of them women and children. And 6.5 million 
people are internally displaced inside of Syria. That is 11 
million people who have either fled or are internally 
displaced.
    I think we have become desensitized to that reality. The 
degree of carnage and butchery is unparalleled today, and it 
has bled over into Europe in a trail of death that traverses 
the Mediterranean and under dangerous roots where it threatens 
to destabilize an entire continent.
    So I listen. And I have great respect for all of you. You 
have come before the committee many times. And this is not an 
easy situation. But what I hear here is testimony that in 
essence amounts to recommendations for selective engagement on 
a scale that in my view will not lead to meaningful changes to 
stop the human catastrophe or relieve the human suffering that 
we in the Congress, as well as this administration, has done 
little to stop. I think we had an opportunity to affect that 
when several years ago this committee passed a bipartisan 
effort to arm and vet the moderate Syrian rebels at a time that 
it would have made a difference. Unfortunately, the 
administration was not ready to engage in that, and when it 
did, it was way too late and the conflict had already 
conflagrated in such a way that there were no clear sides so to 
speak.
    And I think while we are trying to figure out what we do 
now, I think there are lessons to be learned here for the 
future. We had a hearing here recently about America's role in 
the world. Well, you know, I appreciate and fully have 
supported on Syrian refugees into the United States. I have 
supported the humanitarian assistance. But I want to stop the 
slaughter, not just simply feed those who survive the carnage. 
And in that respect, I do not get much of a sense that we have 
a lot of options. I think we have lost the opportunity and 
emboldened and strengthened our enemies whether those are 
Assad, Iran, Russia, the Islamic State, and I think history is 
not going to look too kindly on us in the years ahead.
    So with that as my own perspective on where we are at and 
how we got here, the question is how do you--specifically, if 
you could give me an A, B, or C--affect the calculus and the 
leverage with Russia who clearly has its interests? It has 
committed troops. It changed the paradigm. It gave Assad a new 
life at a time that Assad--look at the differences of Assad in 
July versus afterwards. A very dramatic difference. And we are 
even in the midst of some negotiations that say we accept him 
for a period of time. God knows how long that is going to be.
    The Iranians, as you have all testified--they have their 
interests, and their interests largely do not coincide with 
ours or for that fact, the Syrian people, most importantly. And 
we seem to be hesitant to do anything to push back on them 
because we are worried that anything we do affects the nuclear 
agreement.
    So at the end of the day, what are--and the Russians at the 
Security Council can veto anything. I agree with you that 
having consequences for not permitting humanitarian assistance 
and other elements of a ceasefire, that there should be 
consequences for those who violate it. But if it is going to be 
at the Security Council, you have got a Russia who is not going 
to vote for that.
    So at the end of the day, what are the things that we can 
do to leverage against or with Russia and Iran, the two big 
players here, as well as other regional players, but where do 
we start there that we can change the dynamics? Because 
otherwise, we are just going to keep having these hearings and 
talk about the carnage, but we are not going to do anything to 
end it.
    I hope silence is not just----
    The Chairman. The one person who is most equipped please 
answer.
    Ms. Lindborg. I am not the most equipped, but I would just 
say that I think everybody shares the utter sense of 
frustration. This is obviously one of those terribly 
complicated situations, especially right now, that does not 
yield to easy answers.
    I would say, however, one of the challenges among the many 
that we have already talked about here today is the lack of 
unity and focus among the purported allies we have in the 
region. You have Saudi Arabia, one of our strong allies, that 
is distracted by Yemen and is blocking negotiations with parts 
of the opposition. You have Turkey that is distracted now by 
its fight with the Kurds. So a terrible situation has been 
further complicated by a splintering of interests among a 
complex set of actors who have different stakes in the 
conflict.
    So that leaves no easy path forward. Whether it is a 
combination of what Ambassador Ford has talked about, or what 
is being addressed in Vienna with these talks, it does not 
appear as if there will be a fast, satisfactory conclusion to 
what is a soul-ripping set of humanitarian catastrophes.
    Senator Menendez. So there are no leverage points against 
the Russians, against the Iranians is basically what I am 
hearing.
    Ambassador Ford. I am not an Iran expert, Senator Menendez. 
But I do think the Iranians are very sensitive about their 
domestic economy. I am a little puzzled that there seem to be 
efforts by the administration to promote business with Iran in 
Europe when Iran is causing us problems in regions such as 
Syria.
    And second, they are sensitive to casualties on the ground 
in Syria. And so if there is a way to increase that cost, I 
think that might be a way to get leverage.
    We need to be clear about what Iran is interested in in 
Syria, Senator, and that is, they want a government in Damascus 
that has good relations with Hezbollah and will give Hezbollah 
sustained strategic depth in its confrontation against Israel. 
That is the Iranian goal, and that goal is at great odds with 
American policy.
    The Chairman. So I am going to need to step out, and I 
appreciate Senator Cardin bringing this to a conclusion after 
Senator Udall.
    I just want to say I sat here for an hour and a half and 
listened, and we thank you so much for your testimony and 
service. But in essence, what we have allowed to occur is this 
is going to be settled in the manner that Russia and Iran 
decide it is going to be settled. And that pendulum swung when 
Russia stepped into the vacuum that we allowed to exist for so 
long. We did not, along the way, do the things that we said we 
were going to do. I mean, all of us have visited the refugee 
camps and talked to the people there telling them help was on 
the way, and this is what we are going to do to keep their sons 
and uncles and nephews from being slaughtered. And we never 
delivered. Not with any frustration towards each of you. You 
are doing your best to rationalize what is happening and to 
help directly in many ways. It is pretty unbelievable to me 
that this has gone on as long as it has gone on. We did not 
even do the things that we said we would do, and certainly 
missed huge opportunities along the way to keep 405,000 people 
from being slaughtered and half the country from being 
displaced.
    So we thank you for your efforts.
    I see no real solution that the United States is going to 
drive. Russia, Iran, and the Syrian regime is going to drive 
whatever solution occurs, and we are going to be basically 
acquiescing to that. I think we all know that. And I say that 
with tremendous frustration.
    So with that, Senator Udall.
    Thank you each for being here. If you do not mind, there 
will be some questions, and if you would answer them fairly 
promptly, we would appreciate it.
    With that, Senator Cardin I know will adjourn. Thank you so 
much.
    Senator Udall. Thank you very much, Chairman Corker and 
Senator Cardin. I really appreciate you calling the hearing and 
very much appreciate all of your service and hard work on many 
of these issues in the Middle East.
    Director of National Intelligence Clapper was pretty frank 
about the situation in Syria, and he said--and I quote--the 
U.S. cannot fix it. The fundamental issues they have, the large 
population bulge of disaffected young males, ungoverned spaces, 
economic challenges, and the availability of weapons won't go 
away for a long time.
    So what can we do? Many Senators on this committee 
staunchly opposed arming the so-called moderate Syrians, and 
that program has been an abysmal failure, as you all know. We 
have to make some hard choices to end the killing in Syria and 
Iraq. Yet, another occupation by U.S. forces is not the answer. 
I know, Ambassador Ford, you said you did not think that was 
the case. I am sure others feel that way.
    We already are slowly, incrementally heading there in Iraq 
without congressional approval, which is something that I am 
very worried about. A limited presence may be justified, but I 
have deep concerns. I firmly believe that the lack of an AUMF 
has weakened the Congress and set a dangerous precedent. That 
is not in our Nation's long-term interest, and it is not in 
line with the Constitution.
    So a question to Dr. Cofman Wittes. You wrote about this 
slippery slope. In just 2 years, the United States has moved 
from airstrikes to hundreds of military advisors in Iraq and 
4,000 troops on the ground in both Iraq and Syria. And now the 
growth of ISIL in Libya and elsewhere is leading to more 
airstrikes in that country, all without congressional 
authorization. This is a generational struggle to contain ISIL 
and al Qaeda globally.
    Do you believe it is appropriate for Congress to place 
limits on our military footprint to prevent another full-scale 
war in the Middle East and without the approval of the American 
people?
    Dr. Wittes. Well, that is a very big question, Senator, and 
I am glad that I do not carry the burden that you carry in 
having to decide these issues up here. Let me do my best to 
give you an academic's perspective.
    ISIS is a threat to the region. It is a threat to the 
United States. It is a threat to the world. And I think it 
appropriate that we are working in coalition to defeat them and 
to deal with that threat. I think DNI Clapper said we cannot do 
this. We cannot do it alone. That is for sure. And so I think 
the key ingredient to success is that we have a strong 
coalition.
    And we have talked a lot over the last hour and a half 
about the fractions within America's coalition, whether it is 
competing priorities or concerns about the prospect of state 
failure in Syria, or other states like the issue of Kurdish 
autonomy or independence. These are issues that if the United 
States does not want to go it alone and wants to be successful 
in coalition it is going to have to address individually with 
some partners and collectively with others. It is not a small 
matter.
    And I think the conclusion that I draw not only from these 
last years of efforts to resolve the Syrian conflict, but more 
broadly looking across the arc of our policy in the Middle East 
over the last years is the importance of alliance 
relationships, the importance of partnerships, and the 
importance of dialogue because we are not always going to agree 
on interests or on priorities. But we can never stop talking 
and go on our own ways because we end up creating more problems 
for ourselves and for our friends.
    Senator Udall. There was a lot of attention given to the 
fact that the Russians pulled back and they made public 
announcements and everything. What actually happened there? Are 
they still just as engaged and just as involved in Syria as 
they were before? What is your sense from everything you can 
tell, open sources and everything, the numbers of troops, the 
numbers of fighting forces, weaponry, all of that, to any 
member of the panel here?
    Ambassador Ford. Senator, they are still deeply involved 
militarily. They continue to conduct combat operations. They 
did withdraw some kinds of aircraft, but they sent in ground 
attack helicopters instead. And so in a sense, they adjusted 
their force structure, adapted it to conditions on the ground.
    Senator Udall. Any other panelist have a thought on that? 
No? Please go ahead.
    Ms. Lindborg. Only that as we saw, the Syrian regime, with 
support from primarily the Russians but also the Iranians, has 
continued to do relentless bombardment of civilian populations, 
especially in and around Homs and Aleppo. And as Ambassador 
Ford has said, that is with the reinforcements that they 
received over the last 9 months.
    Senator Udall. And once again, let me echo what everybody 
said. We really appreciate all your hard work, your focus on 
this, your thoughtfulness. And you can tell a lot of us are 
very frustrated like I think you are.
    Thank you very much, Senator Cardin.
    Senator Cardin [presiding]: And let me join the chairman in 
thanking our panel.
    The magnitude of the crisis here demands U.S. leadership 
and attention. Clearly the underlying solution is for the 
Syrians to have an opportunity to develop a country that they 
want and respect and have credibility. And that requires the 
United States, working with our coalition partners, to make it 
clear that those who interfere with that that there are 
consequences. I agree, Ambassador Ford, I do not want U.S. 
troops in Syria for the reasons that you just said. But there 
have got to be consequences to those who block humanitarian 
aid. There have got to be consequences to those who violate a 
ceasefire. And the United States, working with our coalition 
partners, need to be able to provide that type of a framework 
so that we can move forward for peace among the Syrian 
communities and isolate the terrorists and work to eliminate 
the terrorists.
    And I think this hearing has been helpful in that regard, 
and I thank you all for your comments.
    As the chairman said, the record will remain open until 
Thursday. If questions are asked, we would ask that you try to 
respond to that quickly.
    Without objection, the Human Rights First statement will be 
included in the committee record.
    Senator Cardin. And with that, the committee stands 
adjourned. Thank you all very much.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

               Statement Submitted by Human Rights First

    We are pleased to submit this statement on behalf of Human Rights 
First. Human Rights First works in the United States and abroad to 
promote a secure and humane world by advancing justice, human dignity, 
and respect for the rule of law. Human Rights First is an independent 
advocacy organization that challenges America to live up to its ideals. 
We are a non- profit, nonpartisan international human rights 
organization with offices in New York City, Washington D.C., and 
Houston, Texas.
    For over 30 years, we've built bipartisan coalitions and teamed up 
with frontline activist and lawyers to tackle issues that demand 
American leadership, including refugee protection and the advancement 
of civil society. American leadership is needed now more than ever. 
Effectively addressing the war in Syria and the resulting refugee 
crisis will require the kind of strong global leadership that the 
United States is has a long history of providing.
                   protecting refugees right to flee
    Drafted in the wake of World War II and in the context of the many 
border restrictions that denied refuge to those fleeing Nazi 
persecution, the 1951 Refugee Convention and its Protocol prohibit 
states from refoulement, or returning people to places where their 
lives or freedom would be at risk. Even states that are not party to 
the Refugee Convention and Protocol must comply with this prohibition 
as it constitutes a tenet of customary international law. At a time 
when thousands of families fleeing Russian bombs, Syrian government 
attacks, and ISIL terror have been blocked from escaping the violence 
raging within their country, compliance with these refugee protection 
tenets and international law is more important thanever.
    In the absence of adequate responsibility-sharing by other 
countries, front- line refugee hosting states have imposed an array of 
restrictions, escalating in 2015, blocking entry to many refugees 
trying to flee Syria. Jordan has restricted the entry of refugees since 
2013 and largely closed its borders to Syrian refugees in 2014. As of 
May 2016, over 50,000 Syrian refugees were stranded on a berm in a 
remote desert area ``no man's land'' along the Syrian-Jordan border. 
Likewise, in January 2015 Lebanon imposed new border rules that 
generally bar Syrians from escaping to Lebanon, leading many to be 
turned away and forced to return to Syria in violation of customary 
international law protections against refoulement.
    Turkey has also closed its borders to Syrians seeking refuge, 
preventing thousands from escaping Syria. As Syrian government attacks 
on Aleppo and its surrounding countryside, supported by Russian aerial 
bombing, escalated in February 2016, tens of thousands of Syrians fled 
to the Turkish border, only to be barred from crossing into Turkey. In 
April, human rights researchers reported that Turkish border guards 
shot at Syrian refugees trying to cross to safety in Turkey, and 
multiple reports indicated that refugee camps within Syria near the 
border have been attacked.
    While the countries that border Syria have legitimate security 
concerns, they can address these concerns through individualized 
exclusion assessments conducted in accordance with international law. 
Blanket or random denials of entry violate the Refugee Convention and 
international law prohibitions against return. Not only do border 
restrictions that improperly bar refugees violate international law, 
but they leave Syrians with no way out of a country ravaged by barrel 
bombs, conflict, and terror. These moves also make clear to many 
Syrians that they cannot secure effective protection in the region.
                     advancing refugee resettlement
    With respect to Syrian resettlement alone, Oxfam calculated in its 
2016 Syria Crisis Fair Share Analysis that only 128,612 resettlement or 
other humanitarian admission spots had been pledged by the world's 
richest governments--still 331,388 below the overall Syrian 
resettlement need level (as of February 2016) of 460,000. The United 
States, long the global leader in resettlement, admitted only 105 
Syrian refugees in fiscal year 2014 through resettlement, only 1,682 in 
fiscal year 2015, and only 1,736 so far this fiscal year.
    Resettlement is a tangible demonstration of responsibility-sharing 
by countries outside the region, providing critical support to front-
line refugee hosting states as they struggle under the strain of 
hosting large numbers of refugees. Resettlement can also, most 
critically, be a life-saving solution for vulnerable refugees who are 
struggling to survive in front-line countries. In addition, it can also 
be a tool for protecting other refugees--particularly if effectively 
leveraged--by encouraging front-line countries to continue to host the 
bulk of refugees and to allow additional refugees to cross into their 
countries to escape conflict and persecution.
    The lack of effective resettlement or other orderly routes to 
protection has significant consequences. As detailed in Human Rights 
First's February 2016 report The Syrian Refugee Crisis and the Need for 
U.S. Leadership, based on research in Jordan, Lebanon and Turkey, the 
lack of effective regional protection, exacerbated by the lack of 
assistance and insufficient orderly resettlement or visa routes for 
refugees, has driven many Syrian refugees to embark on dangerous trips 
to Europe. In Turkey primarily, and also in Jordan and Lebanon, Human 
Rights First researchers heard reports that refugees who had been 
struggling to survive for years in exile lost hope while waiting for 
potential resettlement and decided to instead take the dangerous trip 
to Europe.
    However, U.S. commitments to resettle Syria refugees have--so far--
fallen far short of the necessary leadership, given the scale of the 
crisis and the impact of the crisis on U.S. allies, regional stability, 
and U.S. national security interests. With its pledge to resettle 
10,000 Syrian refugees this fiscal year, the United States has agreed 
to take in only about 2 percent of the Syrian refugees in need of 
resettlement, which amounts to less than 0.2 percent of the overall 
Syrian refugee population of 4.7 million. The lackluster U.S. response 
has been particularly detrimental given the traditional U.S. role as 
the global resettlement leader.
    Seven months into the fiscal year, the United States has resettled 
just 1,736 Syrian refugees. With five months left to meet the remaining 
81% of its goal for the fiscal year, the United States has a long way 
to go to meet its modest goal. It is imperative that the United States 
meet this commitment, and significantly increase its resettlement 
commitment for the next fiscal year. The United States has the capacity 
and security systems to resettle far more than 10,000 Syrian refugees. 
A bipartisan group of former humanitarian and national security 
officials has recommended that the United States resettle 100,000 
Syrian refugees, and the U.S. Commission on International Religious 
Freedom has also recommended that the United States resettle 100,000 
vulnerable Syrian refugees.
    In a December 2015 letter to Congress, a bipartisan group of former 
national security advisors, CIA directors, secretaries of state, and 
Department of Homeland Security secretaries pointed out that the 
refugee ``resettlement initiatives help advance U.S. national security 
interests by supporting the stability of our allies and partners that 
are struggling to host large numbers of refugees'' and also stressed 
that refugees ``are vetted more intensively than any other category of 
traveler.'' The bipartisan group, cautioned that barring Syrian 
refugees ``feeds the narrative of ISIS that there is a war between 
Islam and the West,'' urging the U.S. government to reject ``this 
worldview by continuing to offer refuge to the world's most vulnerable 
people, regardless of their religion or nationality.'' Some of the 
signers on the letter included Former Secretary of State Madeleine 
Albright, Former CIA Director and Secretary of Defense Leon Panetta, 
Ret. General and former CIA Director David Petraeus, former Secretary 
of Homeland Security Michael Chertoff and former Secretary of Defense 
Chuck Hagel.
           turkey's border closures restricting civil society
    In President's Obama's December 7, 2015 televised addressed, he 
billed Turkey's border closure as an achievement in the fight against 
the Islamic State in Iraq and the Levant (ISIL).
    In reality, the opposite is true. After consultations with Syrian 
civil society activists, including during fact-finding trips to the 
Turkish border in 2015 and 2016, it is clear that the closure does not 
deter ISIL from crossing in and out of Syria. Rather, it prevents civil 
society activists from doing their vital work in the fight against ISIL 
and against the repression of Bashar al-Assad's regime. To the limited 
extent that international attention has been paid to the danger of 
Turkey's border closure, it has focused on the very real harm to 
refugees trying to flee Syria. Even less discussed is the threat to 
Syrians trying to support civil society in their country.
    Activists working across the border are trying to prevent exactly 
the sort of grievances that ISIL feeds on. Activists can dissuade 
potential recruits from joining ISIL, but only if they can reach them. 
The effective closure of legal crossings since July 2015 for all but 
humanitarian emergencies and a few other exceptions is strangling the 
work of these activists.
    If America's ``support for civil society is a matter of national 
security,'' as President Obama declared in late 2014, Washington should 
be doing everything it can to empower Syria's peaceful voices battling 
the Assad regime, ISIL and other extremist groups. Unsealing the border 
will let them do their lifesaving work.
          the role of civil society in the syria peace process
    Currently, there is no formal role in the Geneva talks for Syrian 
civil society. Secretary Kerry has rightly said that the initiative's 
goal should be creating ``the basis for an inclusive, peaceful, and 
pluralistic Syria.'' However, it will be difficult for parties to reach 
an informed political deal without the direct input of those who are 
battling to hold what's left of Syrian society together.
    Syria's problems are too big to be left to politicians alone. If 
the Geneva talks are to be the beginning of the end of the Syrian 
conflict, delivering a successful, long-lasting peace deal will require 
the early involvement of the country's medics, students, engineers, and 
other civil society representatives. The United States should push for 
their participation in these negotiations.
                   support for armed groups in syria
    Finally, Syria's conflict has produced hundreds of local, regional 
and national fighting forces. While the regime's Russian and Iranian 
backed military remains the most powerful force, the United States 
should not ignore the many smaller opposition groups, including Free 
Syrian Army, Kurdish groups, ISIS, Al Nusrah and many others whose 
allegiances can shift depending on what other forces are threatening 
their locality.
    The larger and smaller opposition groups generally rely on outside 
sponsorship to survive, although ISIS, which controls lucrative oil 
fields and major population centers like Mosul in Iraq, and has a vast 
arsenal of weaponry, is largely self-funding.
    Turkey, the United States and the Gulf Cooperation Counsel (GCC) 
states are the main political and military backers of these other 
groups, although the complicated internecine nature of the war means it 
is not always clear who is fighting whom at any particular time.
    At a meeting with GCC foreign ministers in Bahrain on April 7, 
2016, Secretary Kerry urged Saudi Arabia, Qatar, and Washington's other 
regional partners to use their influence with these rebel groups to 
keep the truce and to support the negotiations in Geneva. This is a 
message President Obama should emphasize as talks continue.
    Just as countries should be pressed to control their proxies, 
President Obama should also push them to support enforcement of United 
Nations Security Council Resolution 2139, to have medical facilities 
and personnel protected during the conflict.
    In February 2014 the United Nations Security Council unanimously 
adopted resolution 2139 (2014), demanding the safe passage of food and 
medical aid to civilians and that ``all parties respect the principle 
of medical neutrality and facilitate free passage to all areas for 
medical personnel, equipment and transport.'' However, it has not been 
enforced, and the United States should press its regional allies to 
support enforcement of the resolution by using their influence with the 
militias and by supporting greater enforcement mechanisms at an 
international level.
                            recommendations
    The United State should lead a comprehensive global initiative to 
protect Syrian and other refugees. Such a comprehensive approach would 
enhance the stability of refugee-hosting states and the broader region 
surrounding Syria, and would advance the national security interests of 
the United States and its allies. Key elements:


   Champion the protection of refugees.--The U.S. government should 
        use its influence with its allies to protect refugee rights to 
        cross borders to seek protection, to work and to access 
        education, to move freely without living in fear of arbitrary 
        detention or xenophobic violence.

   Encourage Turkey, Jordan, Lebanon, Egypt and other states in the 
        region surrounding Syria to stop blocking or preventing Syrian 
        refugees from fleeing their country.--The United States and 
        other donor states should increase their support to these 
        states--through humanitarian aid, development investment and 
        resettlement--and make clear that they expect these nations to 
        comply with international law and allow Syrian refugees to 
        cross their borders.

   Lead by example and substantially increase the U.S. commitment to 
        resettle Syrian refugees.--A bipartisan group of former U.S. 
        government officials, including ones with national security and 
        humanitarian expertise, have called on the United States to 
        resettle 100,000 Syrian refugees, noting that such a commitment 
        would ``send a powerful signal to governments in Europe and the 
        Middle East about their obligations to do more.'' The 
        Bipartisan U.S. Commission on International Religious Freedom, 
        explaining that ``[t]he United States must continue to live up 
        to our nation's core values,'' has similarly recommended that 
        the United States resettle 100,000 Syrian refugees. This 
        commitment would be miniscule compared to that of Jordan, 
        Lebanon and Turkey, and would amount to just over 2 percent of 
        the overall Syrian population hosted by these and other states 
        in the region and only about 21 percent of the overall 
        resettlement need, estimated to exceed 460,000. This commitment 
        would still fall far short of the U.S. ``fair share'' level of 
        163,392 Syrian resettlements.

   Continue to address staffing and efficiency gaps to reduce 
        backlogs, bottlenecks in resettlement and SIV processing.--The 
        U.S. Department of Homeland Security, Department of State and 
        other agencies should continue efforts to increase staffing, 
        efficiency, prioritization and resources to address the 
        backlogs, delays and efficiency gaps that are hampering the 
        U.S. resettlement process. The President and Congress should 
        encourage and support increases in staff and resources. These 
        backlogs undermine the reputation of these programs and the 
        nation's ability to meet its commitments to U.S. allies, other 
        refugee-hosting countries, and vulnerable refugees, including 
        those facing grave risks due to their work with the United 
        States. Addressing delays, backlogs and efficiency gaps would 
        not undermine security; rather it would strengthen the 
        effectiveness of U.S. processing. It is certainly not in the 
        security interest of the United States to have delays in 
        security vetting, which would potentially put off the 
        identification of a person who might actually pose a security 
        threat.

   Ensure that NATO actions, as well as any proposed ``safe zone,'' 
        ``no fly zone,'' or similar endeavors, do not violate the human 
        rights of refugees and migrants, including the right to flee 
        persecution and seek asylum, and do not end up exposing 
        civilians to dangers. UNHCR has cautioned that NATO's mission 
        in the Aegean Sea should not ``undermine the institution of 
        asylum for people in need of international protection.'' 
        Efforts to block people from crossing borders to secure 
        protection often instead push them--and the smugglers who 
        profit off migration barriers and human misery--to find other, 
        sometimes riskier, routes.

   Work with other donor states to meet humanitarian appeals and 
        significantly increase U.S. humanitarian aid and development 
        investments in frontline refugee hosting states.--In 
        particular, with Congress' support, the administration should 
        substantially increase both U.S. humanitarian assistance for 
        Syrian refugees and displaced persons and U.S. development aid. 
        The United States and other donors should expand and replicate 
        initiatives that increase opportunities for refugees to work 
        and access education, while also supporting refugee-hosting 
        communities.


    To address the ongoing conflict in Syria and work to bring about 
its swift, peaceful resolution, Human Rights First urges the United 
States to:


   Press Turkey to allow human rights activists to cross the border 
        freely into Syria;

   Ensure that Syrian civil society are included in peace 
        negotiations; and

   Urge its allies to use their power to improve the behavior of the 
        armed groups they support, including respecting human rights in 
        the areas they govern.

      

                A New Normal--Ongoing Chemical Weapons 
                    Attacks in Syria, February 2016

            SUBMITTED BY THE SYRIAN AMERICAN MEDICAL SOCIETY
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


?

      

 TEXT OF ``AN OPEN LETTER FROM SYRIANS WORKING WITH U.S. AND EUROPEAN 
                         FUNDED ORGANIZATIONS''

                               __________


Secretary of State of the United States John Kerry

Foreign Ministers of all Member States of the European Union


    We write to you as Syrians working in USG and European-funded 
organizations on programs promoting local governance, civilian 
livelihood and grassroots organizing; programs meant to support 
democratic reform and the creation of an inclusive pluralistic nation. 
Recent events however have raised doubts whether our work has any 
meaning.
    As Russia and the Assad regime's aggression continue to escalate in 
an unprecedented manner, it has become eminently clear that without 
immediate action by the U.S. and its allies, including a complete 
cessation of hostilities throughout Syria and a meaningful political 
process, our efforts may be lost as the situation on the ground becomes 
irreversible. With local governance and civil society activity wiped 
away, extremists on the ground will be decisively empowered and the 
refugee crisis will spiral out of control.
    In recent days, Russia and the Assad regime have targeted and 
destroyed Syrian civilian infrastructure including the Civil Defense 
base in Atarib, Aleppo, Al Quds hospital, the only hospital providing 
healthcare services for women and children in opposition-held Aleppo, 
two primary health care centers in opposition-held Aleppo, and a 
marketplace in Muarat Numan, among many other civilian localities.
    Five ``White Helmets'' along with the last remaining pediatrician 
in opposition-held Aleppo were killed as a result. Indeed, between 
April 23 and 28, there have been 120 documented cases of regime/Russian 
shelling and barrel bombing, killing a total of 170 people including 36 
children. These people are not only our program beneficiaries, but they 
are more importantly our families and friends.
    While Russia and the Assad regime point to Jabhat al Nusra and ISIS 
to justify these war crimes, the reality is that there are no legal or 
humanitarian justification for the targeting of civilians and civilian 
infrastructure. These claims are mere red herrings to hide the 
appalling truth that Syrian doctors, nurses, civil defense workers, and 
children are the real targets of Russia and the regime.
    As the co-chair of the Vienna Statement, Munich Agreement and the 
ISSG working group, the U.S. holds a dominant role in protecting 
Syrians and ensuring that the regime and Russia are complying with 
Security Council resolution 2254 which calls for a ceasefire, parallel 
political process and the immediate cessation of attacks against 
``civilians and civilian objects . . . including attacks against 
medical facilities and personnel, and any indiscriminate use of 
weapons, including through shelling and aerial bombardment.''
    By failing to take any real steps to enforce this agreement, the 
U.S. is failing in its legal and political responsibilities to stop the 
bloodshed of our Syrian brethren.
    Indeed, U.S. special Envoy Michael Ratney's statement on April 29 
made clear that Aleppo is left out of the current negotiated fighting 
freeze between the U.S. and Russia, which will grant Russia and the 
regime carte blanche to further scorch Aleppo to the ground and 
massacre its people ultimately. We find this utterly outrageous.




                                 (107)


                                     

    While the U.S. and its allies have asked Syrians to be supportive 
of the Geneva peace process, how can we? At the time of this writing, 
Russia and the regime are bombing our hospitals and schools and 
leveling our towns. Minute by minute, we are losing our loved ones to 
Russian missiles and regime barrel bombs under the international 
community's watch. Given such realities, the political process has lost 
any credibility.
    In Secretary John Kerry's address to the Syrian people during the 
Geneva III talks he stated, ``The world needs to push in one 
direction--toward stopping the oppression and suffering of the Syrian 
people and ending, not prolonging, this war.'' If an end to Russian and 
regime aggression is not realized immediately, the conflict will burn 
on. As a result, the only winners in such a scenario are the Assad 
regime and extremist groups like ISIS and Jabhat al Nusra, as the real 
bodies that can create the ``inclusive, peaceful, and pluralistic 
Syria'' that our programs have worked so hard to support will have been 
brutally decimated.


        Sincerely,
     150 Syrians working on programs funded by: U.S. State 
Department, USAID, FCO, DFID, ECHO, EU, Aid Resilience and 
    Stabilization, Danish Foreign Ministry, French Foreign 
        Ministry, German Foreign Ministry, Swedish Foreign 
                      Ministry, and Dutch Foreign Ministry.




                                  [all]



</pre></body></html>
